<html>
<title> - THE NEXT TEN YEARS IN THE FIGHT AGAINST HUMAN TRAFFICKING: ATTACKING THE PROBLEM WITH THE RIGHT TOOLS</title>
<body><pre>[Senate Hearing 112-605]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-605

 THE NEXT TEN YEARS IN THE FIGHT AGAINST HUMAN TRAFFICKING: ATTACKING 
                    THE PROBLEM WITH THE RIGHT TOOLS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-692 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        







                            C O N T E N T S

                              ----------                              
                                                                   Page

Abramowitz, David, vice president, Policy and Government 
  Relations, Humanity United, Washington, DC.....................     7
    Prepared statement...........................................     9
Burkhalter, Holly, vice president, Government Relations, 
  International Justice Mission, Washington, DC..................    17
    Prepared statement...........................................    20
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Pinkett Smith, Jada, actress and advocate, Don't Sell Bodies, Los 
  Angeles, CA....................................................     3
    Prepared statement...........................................     5

              Additional Material Submitted for the Record

Two articles submitted as an attachment to David Abramowitz's 
  prepared statement:
    Testimony of Neha Misra, senior specialist, Migration and 
      Human Trafficking, Solidarity Center.......................    50
    Alliance to End Slavery and Trafficking letter to U.S. Senate 
      Committee on Appropriations................................    55

                                 (iii)

  

 
 THE NEXT TEN YEARS IN THE FIGHT AGAINST HUMAN TRAFFICKING: ATTACKING 
                    THE PROBLEM WITH THE RIGHT TOOLS

                              ----------                              


                         TUESDAY, JULY 17, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Boxer, Cardin, Webb, Durbin, and 
Rubio.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Thank you all very much for being here with us this 
morning.
    We meet this morning to discuss one of the great moral 
challenges of our time, the fight against human trafficking. 
Really, that is almost a light word for what it is. It is 
really slavery, modern-day slavery.
    We have barely broken the seal on the 21st century, but 
already it has been marked by an all too familiar nightmare: 
the enslavement of men, women, and children for the purposes of 
forced labor, sexual exploitation, and other egregious 
violations of human rights. Trafficking in persons is really a 
blight on world communities. It can be found on Thai fishing 
boats where Cambodian men are lured under false pretenses and 
subjected to forced labor at sea. It ensnares young Nepalese 
women who are coerced into a sex industry that ships them off 
to destinations in the Persian Gulf, and it steals away the 
lives of Haitian children who are taken from their families, 
deprived of education, and forced to labor in a home that is 
not their own.
    It is remarkable that there are an estimated 27 million 
people enslaved in the world today and up to 800,000 people 
trafficked across international borders each year. With annual 
profits as high as $32 billion, this criminal enterprise--and 
that is what it is, a criminal enterprise--has inhumanely 
commercialized large swaths of humanity where everything, even 
the lives of young boys and girls, are up for sale.
    This is not a new issue and it is not one that Americans 
come to without bearing our share of responsibility. According 
to the 2012 Trafficking in Persons Report, ``the United States 
is a source, transit, and destination country for men, women, 
and children, both U.S. citizens and foreign nationals, 
subjected to forced labor, debt bondage, involuntary servitude 
and sex trafficking.'' That is an amazing statement and I hope 
it would inspire outrage in everybody.
    Edmund Burke once said that all that is necessary for the 
triumph of evil is for good men to do nothing. Well, we cannot 
stand by and do nothing as housekeepers brought to the United 
States found themselves imprisoned in their homes. We cannot 
stand by as migrant agricultural laborers are enslaved by their 
American employers and subjected to unfair wages and labor 
practices while they toil to pay off large recruiting debts. 
Slavery, whether in the United States or abroad, must be 
recognized, rejected, and eliminated. We must identify the 
problem in all its forms, confront the challenges that 
undermine our best efforts and pinpoint the tools that are most 
effective at overcoming them. And that is what we are here to 
discuss today.
    The fight against trafficking in persons has always 
inspired strong bipartisan support in Congress. In 2000, 
Congress passed, and President Clinton signed, the historic 
Trafficking Victims Protection Act which established a 
coordinated U.S. Government framework based on the so-called 
three P's: prevention, protection, and prosecution. To these 
three P's, Secretary of State Hillary Clinton has added a 
crucial fourth, partnerships with local governments and 
organizations.
    A comprehensive U.S. response to the global scourge of 
human trafficking is long overdue and we know that much work 
remains to be done. We can start by focusing our development 
efforts on the underlying causes of human trafficking, 
including the economic factors that render men, women, and 
children vulnerable to exploitation. We must also engage in a 
multifaceted approach and work in coordination with law 
enforcement agencies, victim services, and community 
organizations. We must focus on prevention strategies that 
target transparency and business supply chains, eliminating the 
market for slave-made goods, and of course, we must assist 
other governments in their efforts to build sustainable public 
justice systems so perpetrators of human trafficking are held 
accountable.
    It is a pleasure to be here today. There are a number of 
colleagues who will join us. Senators Boxer and Cardin have 
been very involved in this issue and have shown leadership on 
it along the way, and last year, along with Senator Leahy and 
others, we introduced the Trafficking Victims Protection 
Reauthorization Act. I intend to continue to work closely with 
my colleagues to ensure that we put together a strong and 
effective antitrafficking program that can tackle this 
obviously horrific and unfortunately widespread challenge.
    In the end, none of us can escape our moral obligation to 
be a leader in the fight against this modern-day slavery. 
History teaches us that we are safest and stronger when the 
world hears from America and when America takes the lead and we 
share the destiny of all people on this planet. That has always 
inspired people and it always will. But the triumph of 
injustice is manmade and so too can injustice be undone at the 
hands of good men and women who take action.
    To help us do that today, we are fortunate to have three 
people who understand their obligation.
    Jada Pinkett Smith is a passionate and articulate advocate 
for combating human slavery. Inspired by her daughter, Willow, 
who is here with us today, she conceived the campaign ``Don't 
Sell Bodies,'' and today she is applying her talents to raise 
awareness of this issue around the world.
    David Abramowitz is vice president for Policy and 
Government Relations at Humanity United, and previously David 
served as chief counsel of the House Foreign Affairs Committee 
where he helped author the Trafficking Victims Protection Act 
of 2000 and the William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2008.
    And finally, we have Holly Burkhalter, vice president for 
Government Relations at the International Justice Mission. 
Holly is one of our leading advocates against human slavery, 
and together with her colleagues at IJM, she has pioneered 
innovative partnerships with local law enforcement agencies and 
worked tirelessly to promote sustainable public justice systems 
across the globe.
    So we welcome all of you and look forward to hearing your 
insights about how we can take on this complex and pressing 
challenge.
    Senator Lugar, I think, is tied up at the Agriculture 
Committee, so we will proceed directly to your testimonies. 
Jada, if you would lead off, and then Mr. Abramowitz and Ms. 
Burkhalter. And thank you again very much for being here with 
us. Your full testimonies will be placed in the record as if 
read in full. If you want to summarize, it is up to you, but we 
appreciate your time. Thank you.

 STATEMENT OF JADA PINKETT SMITH, ACTRESS AND ADVOCATE, DON'T 
                  SELL BODIES, LOS ANGELES, CA

    Ms. Pinkett Smith. Thank you, Mr. Chairman, Ranking Member 
Lugar, and the distinguished members of the committee and 
staff. It is an honor to be here with you all today to discuss 
the important issue of human trafficking.
    In 1865, just 3 months after Congress approved the 13th 
amendment abolishing slavery, Frederick Douglass addressed the 
American Anti-Slavery Society, urging the society not to 
disband. ``They would not call it slavery, but some other 
name,'' he said. ``Slavery has been fruitful in giving itself 
names and you and I and all of us had better wait and see in 
what new skin this old snake will come forth.''
    So as we all know, Douglass was right. This old monster is 
still with us. Today there are an estimated 27 million slaves 
worldwide, more than at any point in history. We call these men 
and women and children the victims of human trafficking. They 
represent every nationality, ethnicity, age group, and they can 
be found everywhere, including here in the United States. Here, 
almost 150 years after the abolition of slavery in the United 
States, conservative estimates suggest that 40,000 people are 
enslaved on our soil at any moment.
    Now, this is an ugly and too often invisible problem. Until 
recently, I like many people was unaware of its prevalence and 
magnitude. It took my 11-year-old daughter, Willow, who is here 
with us today, to bring it to my attention. After watching the 
Kony 2012 video and learning that children in Africa were being 
stolen from their families, forced into sexual slavery or used 
as child soldiers, she started doing some research. She 
discovered that this was not only happening to children in 
Africa or far-off places, but that children in every country, 
including our own, are being forced into slavery. Now, this 
spurred me into action. I began to educate myself on this issue 
as well--reading, traveling, meeting survivors and service 
providers, law enforcement, public officials, and everyday 
citizens fighting against slavery.
    Now, here with us today I decided to bring three survivor 
soldiers that I would like to recognize. We have Minh; we have 
Monica; and we have Jamm.
    Now, Minh was sexually abused by her father beginning at 
the age of 3. At age 11, her father began selling her to other 
men. At 14, Minh's mother felt she was not receiving her fair 
share of the money that Minh was generating, so she began 
selling her herself. All of this torture and abuse was taking 
place while Minh attended public school, received straight A's, 
and played competitive soccer. It happened right underneath 
everyone's noses.
    Now, here we have Monica who ran away from an abusive home 
and was on the streets at the age of 15 where she was kidnapped 
by seven men. They all beat her, raped her, and eventually 
turned her over to another man who forced her to sell her body 
for his financial gain. Monica was constantly in and out of the 
juvenile justice system 16 times between the ages of 15 and 17.
    Jamm was an HIV-negative child born to parents diagnosed 
with AIDS who died by the time she was 10. Jamm was forced to 
live with her mother's sister, a woman who is a unified 
district school teacher in Los Angeles Public School System. 
And there she experienced further sexual abuse from her aunt, 
her aunt's husband, and her cousins. For 4 years, her aunt sold 
her to over 100 pedophiles and child rapists. Trying to escape, 
Jamm stole her aunt's cell phone to try and call for help. Her 
aunt called the police to report the phone stolen and at age 
15, Jamm was arrested.
    Now, today through hard work, perseverance, and support of 
social programs, Minh is a graduate student at UC-Berkeley 
getting her MSW and Ph.D. in social welfare. The recipient of a 
prestigious fellowship, Minh is studying the long-term impact 
of child abuse, trauma recovery, and studying the health and 
well-being of survivors of human trafficking.
    Monica was introduced to a wonderful program that serves 
commercially sexually exploited children called MISSSEY. She 
progressed on to become a part-time MISSSEY staff member and 
began working part-time for Youth Radio. During her time at 
Youth Radio, Monica was one of two key reporters that produced 
``Trafficked'' which was later awarded the Peabody Award, 
Gracie Award, and the Edward R. Murrow Award. Currently Monica 
is a full-time staff member at MISSSEY and a part-time student.
    And finally, we have Jamm, and she was finally recognized 
as a victim and offered the specialized help that victims of 
human trafficking need. She is enrolled at West LA College for 
the fall term. She is working hard so that she can transfer to 
USC in the fall of 2013.
    These women are just three of the faces of human 
trafficking, but they remind us of why we are here today. The 
United States has been a leader in the fight against human 
trafficking for more than a decade, and Congress has been at 
the forefront of those efforts. In 2000, again in 2003, 2005, 
and 2008, members of both parties came together to pass the 
Trafficking Victims Protection Act containing provisions to 
combat domestic and international trafficking and to assist 
victims of trafficking. The law also authorized millions of 
dollars in expenditures across a range of Government agencies 
to support these efforts. Now, I have met beneficiaries of 
those expenditures in the United States and abroad, and I have 
seen firsthand the transformative effects of those programs, 
women, girls, men, boys whose lives were stolen and restored.
    Now, despite these great efforts, the problem of human 
trafficking is growing here in the United States and abroad. 
Meanwhile, the TVPA expired last year. While some TVPA programs 
have received appropriations for fiscal year 2012, future 
funding is not guaranteed. Now, as a result, Government 
agencies and their implementing partners are constrained in 
their ability to develop and implement long-term interventions.
    As we look forward to the next decade, we must renew our 
commitment to ending the scourge of slavery. This means 
reauthorizing the TVPA, ensuring that antitrafficking programs 
receive adequate funding. Fighting slavery does not cost a lot 
of money. The costs of allowing it to exist in our Nation and 
abroad are much higher. It robs us of the thing we value the 
most, our freedom. And we know what that freedom is worth. We 
have paid a high price to defend it here and abroad.
    For those of us joined in this effort now, let our legacy 
be to deliver on the promise of the Emancipation Proclamation, 
making freedom a reality for all who have been victimized, like 
the women who are here with us today, and for our future 
generations.
    Thank you.
    [The prepared statement of Ms. Pinkett Smith follows:]

                Prepared Statement of Jada Pinkett Smith

    Thank you, Mr. Chairman, Ranking Member Lugar, and distinguished 
members of the committee and staff. It is an honor to be here with you 
all today to discuss the important issue of human trafficking.
    In 1865, just 3 months after Congress approved the 13th amendment 
abolishing slavery, Frederick Douglass addressed the American Anti-
Slavery Society, urging the Society not to disband. ``They would not 
call it slavery, but some other name,'' he said. ``Slavery has been 
fruitful in giving itself names . . . and you and I and all of us had 
better wait and see . . . in what new skin this old snake will come 
forth.''
    Douglass was right, this old monster is still with us. Today there 
are an estimated 27 million slaves worldwide--more than at any point in 
history. We call these men, women, and children the victims of human 
trafficking. They represent every nationality, ethnicity, and age 
group, and they can be found everywhere, including here in the United 
States. Here, almost 150 years after the abolition of slavery in the 
United States, conservative estimates suggest that 40,000 people are 
enslaved on our own soil at any moment.
    This is an ugly, and too often invisible, problem. Until recently, 
I--like many people--was unaware of its prevalence and magnitude. It 
took my 11-year-old daughter, Willow, who is here with us today, to 
bring it to my attention. After watching the Kony 2012 video and 
learning that children in Africa were being stolen from their families, 
forced into sexual slavery or used as child soldiers, she started doing 
some research. She discovered that this wasn't only happening to 
children in Africa or far off places, but that children in every 
country--including our own--are being forced into slavery. Spurred into 
action, I began to educate myself on this issue as well--reading, 
traveling, meeting survivors and service providers, law enforcement and 
public officials, and everyday citizens fighting against slavery.
    Here with us today we have three incredible survivors that I would 
to recognize: Minh, Monica, and Jamm.
    Minh was sexually abused by her father beginning at the age of 3. 
At age 11, her father began selling her to other men. At 14, Minh's 
mother felt she wasn't receiving her fair share of the money Minh was 
generating so began selling Minh herself. All of this torture and abuse 
was taking place while Minh attended public school, received straight 
A's and played competitive soccer. It happened right under everyone's 
noses.
    Running away from an abusive home, Monica, on the streets at the 
age of 15, was kidnapped by seven men. They all beat and raped her and 
eventually turned her over to another man, who would force her to sell 
her body for his financial gain. Monica was recidivated in and out of 
the juvenile justice system 16 times between the ages of 15 and 17.
    Jamm was an HIV negative child born to parents diagnosed with AIDS 
who died by the time Jamm was 10. Jamm was forced to live with her 
mother's sister, a woman who is a unified district schoolteacher in the 
Los Angeles Public School System. There, she experienced further sexual 
abuse from her aunt, her aunt's husband, and her cousins. For 4 years, 
her aunt sold her to over a hundred pedophiles and child rapists. 
Trying to escape, Jamm stole her aunt's cell phone to try and call for 
help. Her aunt called the police to report the phone stolen and at age 
15, Jamm was arrested and treated like a criminal.
    Today through hard work, perseverance and the support of social 
programs, Minh is a graduate student at UC-Berkeley getting her MSW and 
Ph.D. in Social Welfare. The recipient of a prestigious fellowship, 
Minh is studying the long-term impact of child abuse and trauma 
recovery, and studying the health and well-being of survivors of human 
trafficking.
    Monica was introduced to a program that serves commercially 
sexually exploited children (MISSSEY, Inc.). She progressed on to 
become a part-time MISSSEY staff member and began working part-time for 
Youth Radio. During her time at Youth Radio, Monica was one of two key 
reporters that produced ``Trafficked,'' which later was awarded the 
Peabody Award, Gracie Award and the Edward R Murrow Award. Currently 
Monica is a full-time staff member at MISSSEY and a part-time student.
    Jamm was finally recognized as a victim and offered the specialized 
help that victims of human trafficking need. She is enrolled at West LA 
College for the fall term. She is working hard so that she can transfer 
to USC in the fall of 2013.
    These women are just three of the faces of human trafficking, but 
they remind us of why we are here today. The United States has been a 
leader in the fight against human trafficking for more than a decade, 
and Congress has been at the forefront of those efforts. In 2000, and 
again in 2003, 2005, and 2008, members of both parties came together to 
pass the Trafficking Victims Protection Act (TVPA), containing 
provisions to combat domestic and international trafficking and to 
assist victims of trafficking. The law also authorized millions of 
dollars in expenditures across a range of government agencies to 
support these efforts. I have met beneficiaries of those expenditures 
in the United States and abroad. I have seen firsthand the 
transformative effects of those programs. Women, girls, men, and boys 
whose lives were stolen and restored.
    Despite these great efforts, the problem of human trafficking is 
growing, here in the United States and abroad. Meanwhile, the TVPA 
expired last year. While some TVPA programs have received 
appropriations for fiscal year 2012, future funding is not guaranteed. 
As a result, government agencies and their implementing partners are 
constrained in their ability to develop and implement long-term 
interventions.
    As we look forward to the next decade, we must renew our commitment 
to ending the scourge of slavery. This means reauthorizing the TVPA and 
ensuring that antitrafficking programs receive adequate funding. 
Fighting slavery doesn't cost a lot of money. The costs of allowing it 
to exist in our Nation and abroad are much higher. It robs us of the 
thing we value most--our freedom.
    We know what that freedom is worth. We have paid a high price to 
defend it here and abroad. For those of us joined in this effort now, 
let our legacy be to deliver on Emancipation's promise, making freedom 
a reality for all who have been victimized--like the women here with us 
today--and for future generations.

    The Chairman. Thank you very much, Jada. I appreciate it.
    Mr. Abramowitz.

   STATEMENT OF DAVID ABRAMOWITZ, VICE PRESIDENT, POLICY AND 
     GOVERNMENT RELATIONS, HUMANITY UNITED, WASHINGTON, DC

    Mr. Abramowitz. Mr. Chairman, Senator Rubio, Senator 
Durbin, thank you for holding this very important hearing and 
thanks for giving me the opportunity to testify today.
    I work for Humanity United, which is a philanthropic 
organization based in San Francisco that works on building 
peace and advancing human freedom, including through the fight 
to combat modern-day slavery.
    Mr. Chairman, as you know and as you stated in your fine 
opening statement, human trafficking remains a huge problem 
around the globe. Just last month, the International Labor 
Organization issued a new global estimate that used a 
definition very similar to the one in U.S. law that you have 
worked so hard on that estimated that any given moment, there 
are 21 million people in forced labor in modern-day slavery.
    But these are not just numbers. I just want to compliment 
Ms. Pinkett Smith for raising out three specific examples of 
survivor voices, which has always been an important element of 
the trafficking movement, to elevate survivor voices, to 
demonstrate that this is an abuse that can be overcome and 
people can move on with their lives. So I just want to thank 
you for doing that and I want to thank the courage of those who 
are willing to stand forward and have their stories, which are 
very difficult stories, be told.
    As we continue to combat this challenge, Mr. Chairman, I 
want to highlight several lessons of the past decade that I 
think we have learned.
    First, we have learned that traffickers most often use 
coercion and fear not chains to enslave victims. But that is 
often not well understood by the U.S. public who more focus on 
the inability to leave as opposed to these subtle forms of 
coercion.
    Second, we have learned that sex and labor trafficking 
frequently go hand in hand. When I was in Nepal in 2010, I was 
shocked to hear from service providers that such dual 
exploitation is as high as 90 percent of those who have left 
their villages seeking better opportunities.
    Third, we have learned how widespread trafficking is and 
that in any given week, each of us may well have eaten, driven, 
dressed, or texted with some product that involves in part 
modern-day slavery.
    Fourth, and in that connection, we have learned that we 
need an all-of-the-above approach embracing many disciplines 
and engaging many actors. And perhaps we can talk about that in 
the dialogue to come.
    Mr. Chairman, let me sketch out some of the solutions to 
these problems which are described in detail in my written 
statement.
    First, developing coalitions and partnerships can maximize 
impact. At Humanity United, we support the Alliance to End 
Slavery and Trafficking, which is a group of 12 U.S. human 
rights organizations that work on slavery both here and in the 
United States, and we are also trying to foster collaboration 
between civil society at the State and local level around the 
United States with law enforcement. We have to build these 
types of local partnerships not only in the United States, but 
also globally.
    Second, as you indicated, Mr. Chairman, we need to address 
supply chains but also foreign labor recruiters. Some companies 
are signing up to a zero tolerance policy in their supply 
chains, and in 2010, a number agreed to more detailed 
implementation guidelines that could make a real difference in 
fighting modern-day slavery.
    Additionally, the new California Transparency in Supply 
Chains Act now requires transparency on what companies are 
doing to eliminate modern-day slavery from their supply chains. 
This will allow us to learn from the leaders in this field but 
also urge the laggards to do more.
    Civil society and the private sector are also developing 
new standards to reduce exploitation by foreign labor 
recruiters, many of whom you suggested are creating some of the 
terrible exploitation that we have seen in the fishing industry 
in Thailand. These sometimes unscrupulous actors not only lure 
girls to the brothels of Phnom Penh but have also put legal H-
2B workers in forced labor in the U.S. shrimping industry on 
the gulf coast. The new standards to address this issue include 
greater transparency on terms of employment and the complete 
prohibition of fees, and all businesses that use foreign labor 
recruiters should demand that these standards be met.
    We also have to develop smarter interventions in vulnerable 
communities, expand our assistance to survivors, and increase 
prosecution of perpetrators. And I think we can discuss some of 
these later in the hearing.
    But, Mr. Chairman, I have to say that as much as we have 
learned over the last 10 to 12 years, we must be honest that we 
still need to invest more in learning. We need to hone in on 
the interventions that really work and while we know something, 
some important elements, we need to learn more.
    Mr. Chairman, as my colleagues will say and as Ms. Pinkett 
Smith has said, much of what has happened in the last 10 years 
is based on strong U.S. leadership which has to continue.
    First, we need to strengthen U.S. diplomacy, as discussed 
in my written statement.
    Second, the United States can do more on supply chains. The 
Department of Agriculture recently put out voluntary guidelines 
on trying to keep slavery out of food supply chains, and they 
have just put out at the end of last month a $5 million RFA, 
request for proposals and agreements, to try to see how we can 
pilot those new guidelines. I think it is very exciting and 
something we should be looking at carefully.
    Senator Rubio is going to be holding a briefing on supply 
chains on this Thursday afternoon, and hopefully that can lead 
to Federal legislation mirroring the California Transparency 
Act.
    And I would also like to see the Department of Labor issue 
long-delayed supply chain guidelines as mandated by current 
law.
    Third, the United States can reinforce standards on foreign 
recruiters as laid out in my statement. I note that recent 
Department of Labor rules for H-2B workers actually put in some 
key protections, not enough in our view, but certainly very 
important steps forward. But those rules are now under attack 
in the U.S. courts and they are subjects to an appropriation 
rider that I hope the Senate reconsiders during the legislative 
process.
    Fourth, the United States can pass the TVPRA, S. 1301, 
which you have had such a huge role in authoring, Mr. Chairman, 
as well as Senator Rubio with the cosponsorship of both Senator 
Durbin and Senator Cardin. And I do not think I could speak any 
more eloquently about the importance of that legislation than 
Ms. Pinkett Smith did. But there are also some other 
legislation regarding Government contracting and strengthening 
child welfare protections that I think deserve a review.
    Finally, this committee can help increase the priority 
trafficking is given by ensuring that assistant secretarial and 
ambassadorial nominees are routinely asked questions about 
trafficking and you bring this issue up when you travel abroad. 
This is a low or no-cost intervention that can yield tremendous 
benefits over the long term as countries and officials see this 
as a continuing important element of U.S. foreign policy.
    Mr. Chairman, we obviously still have a distance to travel 
in our efforts to end this scourge. As we approach the 150th 
anniversary of the Emancipation Proclamation this September, we 
must be humbled that slavery is still present in the United 
States and even prevalent around the world. We in civil society 
stand ready to partner with you and together to try to take 
more steps on the path toward eradicating this modern-day 
slavery and advancing the cause of human freedom.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Abramowitz follows:]

               Prepared Statement of David S. Abramowitz

    Mr. Chairman, Senator Lugar, and other distinguished members of the 
committee, thank you for holding this hearing on one of the most 
terrible human rights abuses of our times--the widespread occurrence of 
modern-day slavery and human trafficking, and thank you for giving me 
the opportunity to testify today.
    Mr. Chairman, I am the Vice President of Policy and Government 
Relations at Humanity United. Humanity United is a philanthropic 
organization based in San Francisco, CA, that works to build peace and 
advance human freedom by combating human trafficking and ending modern-
day slavery and also works to build peace here in the United States and 
around the globe. As I will discuss below in more detail, our work 
targets several key tipping points toward advancing human freedom, from 
funding people who directly combat human trafficking in their 
communities to engaging multinational corporations, who have the 
ability to eliminate forced labor in their products and services.
   scope and nature of trafficking in persons and modern day slavery
    Mr. Chairman, human trafficking continues to inflict suffering on 
tens of millions of people around the globe. It is one of the most 
pressing human rights challenges of our time, yet also crosses over 
into such diverse areas as transnational crime, international 
humanitarian law, domestic and international labor frameworks, and 
migration, among others.
    Just last month, the International Labor Organization (ILO) issued 
a new report on the prevalence of forced labor, using a definition that 
substantially overlaps with most forms of human trafficking and modern-
day slavery. ILO estimates that at any given moment, 20.9 million 
suffer from this these abuses,\1\ with private estimates ranging as 
high as 27 million. The U.N. Office of Drugs and Crimes has cited 
estimates that human trafficking in all its forms yields $32 billion in 
profits every year.\2\ And despite this committee's good work and 
international efforts by a wide array of countries, some believe that 
the worldwide economic downturn has led to a surge in human trafficking 
as those desperate for some way to sustain themselves become more 
vulnerable to the predators who perpetuate modern-day slavery.\3\
    Mr. Chairman, this is not a matter of numbers: each individual 
story of tremendous suffering and exploitation is a human rights 
tragedy that violates our values and beliefs. As you know, this is also 
not a far away problem that affects distant lands. It remains a shock 
to most Americans but thousands of adults are trafficked into forced or 
exploitative labor right here in the United States, and some experts 
estimate that 200,000 to 300,000 U.S. children and youth are at risk of 
being trafficked into commercial sex.\4\ Moreover, the number of calls 
to the National Human Trafficking Resource Center hotline has grown by 
338 percent from 2008 to 2011, from 5,748 to 19,427.\5\
    Each victim of trafficking and modern-day slavery deserves to 
become a survivor. They deserve the assurance their own lives will be 
protected, their perpetrators will be convicted, and the trafficking of 
others will be prevented. And we need to help raise their voices.
          looking forward: four lessons from the last 10 years
    As we look forward, Mr. Chairman, we should also think about the 
lessons we have learned over the last 10 years, a few of which I will 
highlight here.
    First, Mr. Chairman, we have learned so much about the many forms 
and pernicious nature of this abuse, which is less visible and harder 
to identify than in previous centuries. Instead of shackles and chains, 
traffickers use debt, coercion, fear, and intimidation. Actions of 
modern-day slavers include seizing travel documents, creating hidden 
fees that become impossible debts to pay off, and threatening police 
retribution or violence against family members at home if the victim 
tries to leave.
    Yet the public remains confused about these techniques. Humanity 
United recently commissioned research on U.S. commodities and their 
relationship with slave labor. Preliminary findings suggest that the 
average citizen focuses on the physical inability to leave, rather than 
these more subtle forms of coercion. This antiquated public perception 
is something that we need to change if we expect the broader public to 
become fully engaged on the full spectrum of issues that are of 
concern.
    Second, we have learned that the sometimes-divisive dichotomy 
between sex and labor trafficking is an unhelpful lens for examining 
this phenomenon, as sexual abuse is a driver of vulnerability and those 
exploited for labor also find themselves sexually exploited as well. 
When I was in Nepal in 2010, service providers suggested that the 
figure for such dual exploitation is as high as 90 percent of those who 
have migrated, a figure I found shocking.
    Third, given our understanding that in any given week each of us 
may well have eaten, driven, dressed or texted with some product that 
is made, at least in part, with forced labor or slavery, we must look 
to a wider range of actors to really impact this problem.
    Fourth, and in that connection, the multidimensional challenges of 
this issue requires us to collectively address this abuse from all its 
different perspectives. Whether one views trafficking and slavery 
through a prism of human rights, transnational crime, labor violations, 
humanitarian law, migration, sexual violence, child welfare or other 
varied frameworks, we must all come together and find new ways to 
collaborate with each other in order to create a comprehensive approach 
to this issue. Let me give one example of how this comprehensive 
approach is evolving: Even though domestic service in homes has often 
been excluded from traditional ``work'' and therefore has remained 
unregulated, last year a new convention negotiated under the auspices 
of the ILO was developed that will help prevent abuses by creating a 
new framework to protect those who are all too often exploited out of 
sight of everyone but the abuser.\6\ We are not there yet but we are 
getting there.
             developing approaches to combating trafficking
                   in persons and modern-day slavery
    Mr. Chairman, at Humanity United we believe there are achievable 
solutions to this heinous abuse. As I have just suggested ending 
trafficking and slavery requires a unity of effort between civil 
society, the private sector, and governments around the world. 
Nongovernmental organizations and law enforcement can reach out to 
communities to educate at the local level, help free victims, and 
provide essential services to survivors, as well as advocate for 
improved policies and practices. The private sector can help ensure 
that its supply chains are free of slavery and labor exploitation, down 
to the raw material level, and that their employees do not personally 
reap the benefits of trafficking. Philanthropic institutions can fund 
and produce new learning from path-breaking initiatives. And 
governments can ensure that they are not inadvertently involved in 
modern-day slavery and can also institute policies and fund programs 
that can reduce and eventually eliminate widespread use of these human 
rights crimes in individual countries.
Developing Coalitions
    At Humanity United, we lead and support a coalition of 12 U.S.-
based human rights organizations working to end modern-day slavery and 
human trafficking in the United States and around the world. The 
Alliance to End Slavery and Trafficking, or ATEST, advocates for 
lasting solutions to prevent labor and sex trafficking, hold 
perpetrators accountable, ensure justice for victims and empower 
survivors with tools for recovery. ATEST has been working on the 
implementation of the groundbreaking Trafficking Victims Protection Act 
of 2000\7\ (TVPA) and its progeny as well as making proposals for the 
reauthorization of the TVPA that has been under consideration during 
this Congress and related legislation. ATEST also seeks to further 
elevate the voices of survivors, help advance the broader U.S. 
movement, and enhance its engagement with the business community. 
(Humanity United is also looking to engage the business community and 
other stakeholders directly to try to eliminate forced labor, 
trafficking, and modern-day slavery around the world, as I will refer 
to later in my testimony.)
    Humanity United is also working with State and local law 
enforcement officials and civil society organizations in California, 
Texas, Illinois, and New York to further the establishment of 
intelligence-driven and evidence-based investigations and related 
collaboration to assist in better understanding and responding to human 
trafficking and modern-day slavery in the United States. Our efforts 
began in California and have achieved significant gains through the 
committed leadership and partnership of California Attorney General 
Kamala Harris, with the collaboration of the California Police Chiefs 
Association, the California State Sheriffs Association, and the Fusion 
Center established after the terrorist attacks of September 11, which 
was created to share information on combating terrorism threats. By 
utilizing counterterrorism methodologies, increasing education, and 
creating and widening networks, early findings suggest that more 
intensive collaboration can allow law enforcement and civil society to:

  <bullet> Better understand the scope and diversity of the human 
        trafficking problem;
  <bullet> Increase recognition of the indicators of human trafficking, 
        and better understand the profiles of human trafficking victims 
        and perpetrators; and
  <bullet> Increase individual and community capacity and resources to 
        investigate and respond to identified and suspected human 
        trafficking incidents.

    Coalitions and partnerships, including south-south partnerships, 
are also starting to occur in other countries, and can similarly be 
effective in dealing with national and regional issues.
Addressing Supply Chains
    Humanity United is currently leading research and initiatives to 
better understand forced labor, trafficking, and modern-day slavery in 
global supply chains. At Humanity United, we believe business and 
markets can be influential partners and instruments in building peace 
and advancing human freedom. Corporations, with their worldwide reach 
and deep engagement with labor--either directly or through their 
contractors and subcontractors--have the opportunity to ensure that 
severe exploitation is eliminated in all their operations from the 
assembly of their products to the sourcing of raw materials. 
Increasingly, members of the business community are recognizing that 
they have not only the opportunity but also the responsibility to stop 
trafficking and modern-day slavery, and consumers are increasingly 
expecting them to exercise that responsibility. So do we.
    We also need to recognize, however, that this work is not easy. 
Much of the most severe exploitation occurs at the very bottom of the 
supply chain. Whether it is the charcoal mined with slave labor that is 
used to make the pig iron to build the automobiles we drive or the 
shrimp on our tables that are peeled in sheds by unpaid Burmese 
refugees in Thailand, global corporations will need to go deep into 
their supply chains to ensure the products we all use are untainted by 
modern-day slave labor. Humanity United is conducting research and 
engaging in initial programming on shrimp, palm oil, and gold, as well 
as other commodities, and hope to engage with companies in the near 
future on ways they can ensure they are not using forced labor or other 
forms of modern-day slavery.
    Over the last 10 years, companies have begun to demonstrate an 
interest in doing more themselves. In 2006, the Athens Ethical 
Principles were agreed to by hundreds of partners, which include zero 
tolerance for trafficking, promoting awareness, encouraging adoption of 
the principles by the suppliers and their subcontractors, and reporting 
and sharing information on best practices.\8\ In 2010, a number of 
leading companies agreed to the Luxor Implementation Guidelines to the 
Athens Ethical Principles, which described 68 different standards, 31 
mandatory and 37 recommended, that put real flesh on the bones of these 
very general principles.\9\ These 68 standards are serious benchmarks, 
which, if implemented widely, would make a real difference in reducing 
and eventually eliminating trafficking and modern-day slavery.
    Mr. Chairman, despite those companies who are beginning to 
implement these guidelines, others are further behind, particularly on 
implementing the more detailed guidelines. This lack of consistency 
needs to be addressed. We were encouraged when Gov. Arnold 
Schwarzenegger signed into law S.B. 657, the California Transparency in 
Supply Chains Act of 2010. Beginning this year, S.B. 657 requires every 
company that does $100,000,000 of business in that State to disclose 
what efforts--if any--they have in place to eliminate slavery and 
trafficking from their supply chains. This will allow all of us to 
assess the companies reached by that law, and whether business leaders 
are doing what they should and to identify the stragglers that need to 
be worked with and urged to do more. ATEST is in the process of 
reviewing the disclosures that have been made in order to help 
determine the effectiveness of this legislation and ways to move 
forward given these new disclosures.
Foreign Labor Brokers
    In addition, Mr. Chairman, the governments and the business 
community need to address the issue of foreign labor recruiters and 
brokers--one of the leading drivers of the phenomenon of slavery and 
trafficking today. Using clever lures and subtle forms of coercion, 
unregulated and unscrupulous labor brokers can induce people to cross 
borders thinking that they are going for legal work, only to trap them 
into modern-day slavery. Last year the Helsinki Commission received 
detailed testimony on these practices, and I have attached a statement 
from that briefing by Ms. Neha Misra of the Solidarity Center on May 
23, 2011, to my testimony.
    In this regard, Mr. Chairman, let me make a few brief points. Mr. 
Chairman, it has become clear that exploitation is not only occurring 
in the brothels of Pnomh Penh or in the rice mills of southern India. 
It is happening as labor recruiters and brokers supply workers to the 
palm oil plantations of Malaysia and construction projects in the Gulf 
countries. It is happening as recruiters deceive young girls with 
promises of legitimate work only to bind them into sexual exploitation.
    The continuing difficulty of working on these issues, whether 
within a framework combined with sustainable development and 
multistakeholder initiatives or on their own, is demonstrated both in 
Ben Skinner's recent reporting on modern-day slavery in the fishing 
industry,\10\ or the story told by the Department of State's 2012 TIP 
Hero, Vannak Anan Prum, who was trafficked into that industry and then, 
upon escape, sold into slavery at a palm plantation in Malaysia.
    Finally we must recognize that action is needed at home, as this 
exploitation is happening in our fields, in our factories, and on our 
maritime areas. You may well have recent news reports that legal 
foreign guest workers brought here under the H-2B program became 
victims of forced labor while working in the shrimp industry on the 
Gulf Coast.\11\
    As you may also know, in 2010 the Justice Department handed out 
indictments related to a case of 400 Thai workers who were lured to the 
United States with the promise of good work at fair pay in U.S. 
agriculture, and even obtained a visa under the H-2A program. Instead 
they were forced to take on crushing debt, their passports were 
confiscated, and they were told that if they complained, they would be 
deported.\12\
    Mr. Chairman, it has been good to see the private sector and civil 
society also collaborating to develop reforms in this area. Earlier 
this year, Manpower Group, a private foreign labor recruiting firm, and 
Verite, a U.S. nongovernmental organization, unveiled ``An Ethical 
Framework for Cross-Border Labor Recruitment.''\13\ Similarly, after 
extensive consultations with a wide range of stakeholders, the 
Institute of Human Rights and Business, located in London, issued the 
Dhaka Principles for migration with dignity.\14\ Both the Dhaka 
Principles and the Manpower/Verite Framework includes an emphasis on 
compliance with legal structures, including immigration; transparency 
on terms of employment; and the complete prohibition of fees related to 
recruitment and training. These are critical benchmarks that should be 
adopted by all foreign labor brokers, and all businesses relying on 
foreign labor should demand their use. I will say more about U.S. 
efforts on this score in a moment.
Developing Smart Interventions in Vulnerable Communities
    Mr. Chairman, beyond these structural reforms, we also need to 
continue to develop smart interventions at the local level to prevent 
trafficking and reduce vulnerability. USAID's new Counter Trafficking 
in Persons Policy released earlier this year is an example of how 
programs on education, microcredit, and other locally based development 
tools can be targeted toward vulnerable communities in ways that can 
help reduce the prevalence of modern-day slavery.
    In my view, this integrated approach is critical. In the late 1990s 
and in the years after the TVPA of 2000 was adopted, antitrafficking 
prevention efforts tended to focus solely on improving awareness, with 
an emphasis on the dangers of trafficking and the need to remain in 
local communities. Yet these efforts were unable to overcome the ``push 
factors'' of social discrimination, gender-based violence, and the 
dearth of economic opportunities. Nor was it able to always compete 
with the ``pull factor'' reflected by stories of individuals who had 
successfully left their communities for a better life. And it did not 
impact the local communities around the world who were suffering under 
debt bondage in their own villages, bonded into generational work at 
rice mills or brick kilns. At the same time, traditional community 
development projects to improve health, education, and economic 
opportunities were frequently not specifically targeted to communities 
who are vulnerable to trafficking
    Increasingly, we have seen the development of programs that 
integrate traditional development and tailored antitrafficking 
approaches--increasing access to education as a way to pull children 
out of domestic servitude; awareness raising to help communities 
understand both the right to, and the risks of migration; promotion of 
workplace rights; microcredit to create new opportunities, and 
agricultural assistance to allow for at least successful subsistence or 
more. For example, World Vision is conducting a program in the 
Philippines funded by the International Labor Affairs Bureau (ILAB) at 
the Department of Labor (DOL) that combines radio and television 
awareness raising with policy advocacy, improved education, raising 
livestock and microcredit to help prevent the use of children in 
domestic work, mining, and the sex trade. I understand that this 
program has been estimated to reach 31,000 children and their families.
    Of course, not all donors, including private donors, have the 
resources to always program such integrated approaches, and there 
remains value in looking at individual interventions to see if they can 
make a difference. However, that should be the direction that we all 
aim toward as we try to work at the various aspects of the challenges 
in vulnerable communities.
    Still, Mr. Chairman, we have to recognize that the ``push'' and 
``pull'' factors I described above are ever-present in vulnerable 
communities. As long as social discrimination exists and women do not 
have equal access to economic opportunities, or work such as domestic 
labor is not recognized and protected, disadvantaged communities will 
seek work in locations or industries that make them vulnerable to 
exploitation. Therefore, we also need to equip vulnerable populations 
with tools to ensure they are not exploited, as well as put in place 
some of the protections I have described above. Otherwise we are like 
the king who commanded the tide to stop coming in.
    Finally, Mr. Chairman, despite some of the learning I have 
described above, we must be honest that we do not yet know all that we 
need to understand in order to create the sustainable interventions 
that address the many factors that allow this scourge to persist. A 
high investment must be made in learning what works, including by 
expending resources on both long-term and short-term studies. In the 
few instances this has been done, we have come to better understand 
what works. Of course we must simultaneously recognize that phenomena 
is highly localized, and that traffickers frequently change their 
approaches, and we must not overgeneralize. Yet, with the 
multidimensional aspects of these phenomena, and the profound impact we 
can have on people's livelihoods, we must do more to learn what works.
Helping Survivors and Prosecuting Perpetrators
    In addition to many of the prevention mechanisms I have just 
described, we of course need to continue to address protection and 
prosecution, the other two pillars of the so-called three P's. Clearly 
we will not be able to eradicate every form of slavery in the near 
term, so we must increase our ability to care for the victims and be 
relentless in pursuing the perpetrators.
    The road from victim to survivor is a long one. First, they remain 
at risk if they are left in a vulnerable situation or are treated as 
criminals themselves, perpetrating the fear of law enforcement 
instilled by so many of their traffickers. Law enforcement and other 
first responders, sometimes those who are inspectors or immigration 
officials, must be trained to identify trafficking victims so they can 
either be brought out of their situation or, if found, are not treated 
like a criminal, as are many women who are forced into commercial sex.
    Second, once they are freed, they must be provided with critical 
services. Not all countries can provide all services, but security in a 
supportive environment is one service that should have priority. 
Recognizing this, the U.S. Government has pressed other countries to 
provide shelters for trafficking victims. However, in a number of 
cases, detention facilities have been simply renamed shelters, and 
those countries have claimed credit for compliance. This is simply not 
an acceptable approach, and shelters must be combined where possible 
with psychosocial services to allow victims to overcome the trauma of 
being under the control of others. In countries with more resources, 
having case managers who can identify particular needs and find 
available resources for victims can be critical. Legal assistance for 
the victim can also be critical, as victims may have access to civil or 
administrative remedies to help them start a new life, but no 
understanding of how to access them.
    Third, as they move to becoming survivors, victims need help 
reintegrating into society. This may mean overcoming stigma faced back 
in their local communities, or assistance in finding new ways of 
supporting themselves economically and socially in the communities 
where they have been freed.
    Nor should we ignore prosecution of perpetrators. Despite all the 
dimensions of the issue, at the end of the day, trafficking is a crime, 
as recognized by the Palermo Anti-Trafficking Protocol to the 
Convention Against Transnational Organized Crime. While there may be at 
times alternative approaches in particular cases, prosecution is a key 
tool to creating deterrence and achieving justice. Labor frameworks and 
cooperation with business have their place, but the worst perpetrators, 
including the pimps who enslave children and the unscrupulous who seek 
to increase profit by exploiting workers must be under threat of 
prosecution from national authorities. One area that needs to continue 
to be addressed is prosecution of corrupt government officials who 
create a safe space for trafficking to take place. I draw your 
attention to the 2011 UNODC report, which provides important data on 
the nature of this corruption.\15\
          maintaining the leadership role of the united states
    Mr. Chairman, much of what we have learned and much of the positive 
developments we have seen would not have been possible without U.S. 
leadership. I want to commend this committee for the work it has done 
in helping to sustain this leadership, including the work it has done 
this Congress on S. 1301, the Trafficking Victims Protection 
Reauthorization Act of 2011.
    Maintaining Diplomacy. In particular, the Department of State's 
Trafficking in Persons report mandated by the Trafficking Victims 
Protection Act of 2000, has been a real catalyst for change, and given 
civil society around the world an opening to reduce many of these 
terrible practices. Whether inducing cooperation between the United 
States and Cambodia on combating sex trafficking, increasing the 
urgency of stopping exploitation of foreign labor among the Gulf 
Cooperation Countries or increasing the efforts of Nigeria to impede 
trafficking of women to Italy, the political impact of the report and 
its tier system is well recognized, even by its original skeptics.\16\ 
We should be taking steps to strengthen the Office to Monitor and 
Combat Trafficking, ensure that it continues to be a center of 
excellence and drafter of the report, and the report itself remain a 
catalyst for change. In that context I am concerned by some of the 
recommendations in the Report of the Office of the Inspector General, 
including some implicit criticism of the TVPA itself, and the idea of 
ending the physical publication of the report. While I am still 
studying this just-issued report, I do note that it also raises fair 
concerns regarding the lack of cohesion within the Department and the 
effect of the so-called ``automatic downgrade'' provision that may be 
skewing assessments under the tier system.
    In addition, in many ways, the U.S. Government is making progress 
in many of the topics that I have discussed above:
    Engaging Civil Society. Since the beginning, the TIP office has 
engaged with civil society to determine how to most effectively combat 
human trafficking. And in the last 5 years, other Departments, 
including the Department of Justice and the Department of Homeland 
Security, have been engaged in an increasingly interactive dialogue 
with civil society, for which both the Bush and Obama administrations 
should be commended. We are currently engaged in an active conversation 
with the administration regarding how best to improve assistance to 
survivors in the United States and to prevent U.S. Government contracts 
from intersecting with trafficking, areas the Senate more generally 
should be looking at more concretely.
    Supply Chains. With respect to supply chains, the United States is 
doing more to help identify solutions. The voluntary guidelines issued 
by the Consultative Group created by the Department of Agriculture 
point to key principles for this work, and I want to commend the 
Department of Agriculture for dedicating $5 million to support 
project(s) to pilot test specific elements of the guidelines. In 
addition, we also hope that the standards being reviewed by the 
Department of Labor as mandated by the Trafficking Victims Protection 
Reauthorization Act of 2005, which have been delayed by some time, will 
also make a contribution in this area. We hope Congress can push the 
Department of Labor to issue those guidelines soon. We also understand 
that other agencies are developing learning in this area and we look 
forward to their conclusions as well.
    Finally, we believe that the policies behind the California 
transparency law I described earlier could be strengthened by requiring 
similar provisions in Federal law covering the broadest possible range 
of companies throughout the United States. H.R. 2759, the Business 
Transparency on Trafficking and Slavery Act, has been introduced in the 
House to implement this very recommendation, and I want to commend 
Senator Rubio, a member of this committee, for offering to hold a 
briefing later this week to educate Members of this body on this 
important reform more generally. And later today, ATEST will host a 
live Webcast that will consist of a panel of experts on supply-chain 
issues that will be very illuminating.
    Foreign Labor Brokers. The United States is also looking at the 
issue of foreign labor recruiters. If the United States adopts a 
framework for ensuring that these types of abuses does not occur here, 
and applies it to both foreign recruiters and recruiters based in the 
United States, we can make a huge impact--both to prevent abuses within 
our borders and to promote the elimination of abuses around the world.
    This House has already adopted such an approach once. In the House-
passed version of the William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2007, the House adopted such a 
structure by a near unanimous vote. Unfortunately, that did not become 
part of the final legislation.\17\
    ATEST has reviewed this House-passed provision and made suggestions 
to improve this foresighted measure. ATEST's proposal, which has been 
provided to the committee, provides for a number of different 
protections, many of which mirror the recommendations of the Ethical 
Framework and the Dhaka Principles: elimination of fees, transparency 
and disclosure of contract terms, and a registration and enforcement 
system that penalizes recruiters and complicit employers who do not 
follow the requirements of the system.
    Mr. Chairman, the focus of this provision is on disclosure, 
although the revised provision has some enforcement mechanisms as well. 
There may be some skepticism about the ability of disclosure to address 
such serious abuses. I note, however, that I have repeatedly heard that 
one of the most effective parts of the 2008 reauthorization was a 
requirement to give all legal visa holders information on their rights 
in the United States, which has led to a significant increase in 
reporting of trafficking victims through the national hotline.
    A provision that reflected many of ATEST's recommendations was 
included in the introduced version of the Smith-Berman version of the 
Trafficking Victims Protection Reauthorization Act of 2011,\18\ but 
this version of the legislation does not appear to be moving through 
the legislative process at this time. The Senate version of the 
legislation, S. 1301, addresses this issue by requiring a GAO study of 
these issues. This is certainly an important step, but many think we 
know enough about these phenomena and we should be moving on to reform 
now.
    Indeed, the DOL recently promulgated regulations for one visa 
category, the H-2B nonagricultural workers that took some important 
steps toward limiting abuses by foreign labor recruiters as one part of 
a much-larger rule. Unfortunately, these regulations are being 
challenged in court, arguing that DOL does not have the authority to 
issue such regulations. Moreover, the FY 2013 Labor-HHS Appropriations 
bill includes a rider that would prohibit funds for the implementation 
of these new regulations. Mr. Chairman, given the abuse of these 
programs, demonstrated by such cases as the Thai workers, Indian 
welders, and the recent Gulf shrimp case, I hope that you and other 
Members of the Senate will seek to eliminate provision as the bill 
moves through the legislative process. I have attached to my testimony 
a letter from the ATEST relating to this provision.
    Reauthorizing the TVPA and other legislation. Another key element 
of U.S. leadership is ensuring continuing reauthorization of the TVPA. 
I want to commend, you, Mr. Chairman, for your leadership with S. 1301, 
and also the other 46 Senators who are supporting this legislation. We 
would urge the Senate to move on this legislation as soon as possible. 
I and other civil society organizations are eager to work with you and 
the other leaders of this legislation to address any unresolved issues 
and bring this bill the floor.
    Mr. Chairman, there are other individual pieces of legislation that 
are moving through Congress that I note that S. 2234, the End 
Trafficking in Government Contracting Act of 2012, introduced by 
Senator Blumenthal, Senator Portman, and nine other Senators, looks to 
end trafficking and related conduct by entities that receive Federal 
grants or contractors. At the same time, House is reviewing H.R. 2730, 
the Strengthening the Child Welfare Response to Human Trafficking Act 
of 2011, a bill that would make combating trafficking a higher priority 
in state child welfare systems. A briefing is being held on this 
legislation tomorrow on the House side. I have already referred to H.R. 
2759, the Business Transparency on Trafficking and Slavery Act.
    Helping to Make Combating Trafficking a Priority for U.S. Diplomats 
and foreign governments. Finally, Mr. Chairman, there is a way this 
committee can make a singular contribution to combating trafficking. As 
you know, Mr. Chairman, there is always a debate as to whether it is 
better to create a special office, or ensure that all Ambassadors and 
Regional Assistant Secretaries and other senior State and USAID 
officials see this as their responsibility. You can make both a reality 
by ensuring that these officials get asked questions about this issue, 
making them understand that they will be held accountable for their 
actions in this area. Senator Rubio asked such questions at the 
confirmation hearing for Deputy Secretary Bill Burns to great effect, 
and I believe that similar questioning can go a long way to creating a 
more cohesive approach by the State Department in response to this 
critical issue. Similarly, when you travel internationally, asking 
questions at embassies and of foreign governments can demonstrate that 
this is a congressional as well as executive branch priority. This is a 
low or no cost intervention that could yield tremendous benefits over 
the long term.
                               conclusion
    Mr. Chairman, Senator Lugar, we have obviously learned much about 
efforts to end human trafficking and modern day slavery, but we still 
have a distance to travel. As we approach the 150th anniversary of the 
signing of the Emancipation Proclamation this September, we must be 
humbled that slavery is remains present around the United States and 
even prevalent elsewhere. If this committee continues to act in a 
bipartisan manner, you can ensure an even greater impact, save ever 
more victims, and help the exploited in their journey to move beyond 
their terrible experience and become survivors. We in civil society 
stand ready to deepen the conversation and work with you to ensure that 
we are working together as partners on the path toward eradicating 
human trafficking and modern-day slavery and advancing the cause of 
human freedom.
    Thank you, Mr. Chairman, and Senator Lugar for all the work you 
have done on this and so many other issues.

----------------
End Notes

    \1\ ILO Global Estimate of Forced Labour, http://www.ilo.org/
wcmsp5/groups/public/---ed_norm/---.
    \2\ http://www.unodc.org/unodc/en/frontpage/abolishing-slavery-
eradicating-human-trafficking.
html.
    \3\ David Arkless, Manpower, Inc., Speech at Carnegie Council, 
February 18, 2010, reprinted at http://www.carnegiecouncil.org/
resources/transcripts/0260.html.
    \4\ http://ecpatusa.org/2011/10/ecpat-usa-turns-20/.
    \5\ This number reflects both crisis calls by victims but also tips 
and other communications. http://www.polarisproject.org/resources/
hotline-statistics.
    \6\ International Labour Organization, Convention Concerning Decent 
Work for Domestic Workers (No. 189), 2011, available at http://
www.ilo.org/dyn/normlex/en/f?p=1000:12000:0::NO:::.
    \7\ Pub. L. 106-386, Div. A, Oct. 28, 2000, 114 State. 1466, 
codified at title 22 USC 7101-7102.
    \8\ Athens Ethical principles, www.ungift.org/docs/ungift/pdf/
Athens_principles.pdf.
    \9\ Luxor Implementation Guidelines to the Athens Ethical 
Principles: Comprehensive Compliance Programme for Businesses, 
available at http://www.unglobalcompact.org/news/92-12-12-2010.
    \10\ The Fishing Industry's Cruelest Catch, http://
www.businessweek.com/articles/2012-02-23/the-fishing-industrys-
cruelest-catch.
    \11\ Foreign Labor on American Shores, http://www.nytimes.com/2012/
07/09/opinion/forced-labor-on-american-shores.html?_r=3&smid=fb-share.
    \12\ ``Six People Charged in Human Trafficking Conspiracy for 
Exploiting 400 Thai Farm Workers,'' Press Release, U.S. Department of 
Justice (Sept. 2, 2010), found at http://www.justice.gov/opa/pr/2010/
September/10-crt-999.html.
    \13\ See http://www.verite.org/ethical-framework-for-intl-
recruitment.
    \14\ http://www.ihrb.org/about/programmes/
dhaka_principles_for_migration_with_dignity. html.
    \15\ UNODC, ``The Role of Corruption in Trafficking in Persons,'' 
www.unodc.org/documents/human-trafficking/2011/Issue_Paper_-
_The_Role_of_Corruption_in_Trafficking_in_ Persons.pdf.
    \16\ See, e.g., Anne T. Gallagher. ``Improving the Effectiveness of 
the International Law of HumanTrafficking: A Vision for the Future of 
the U.S. Trafficking in Persons Reports'' Human Rights Review12.1 
(2010).
    \17\ Sec. 202(g), William Wilberforce Trafficking Victims 
Protection Act of 2007, 110th Cong., 1st Sess. (passed by the House on 
December 4, 2007).
    \18\ See section 234, Trafficking Victims Reauthorization Act of 
2011, H.R. 2830, 112th Congress, 1st Sess. (as introduced).

[Editor's note.--The two articles submitted with Mr Abramowitz's 
prepared statement can be found at the end of this hearing in the 
``Additional Material Submitted for the Record'' section.]

    The Chairman. Thank you, Mr. Abramowitz. Thank you very 
much.
    Ms. Burkhalter.

   STATEMENT OF HOLLY BURKHALTER, VICE PRESIDENT, GOVERNMENT 
    RELATIONS, INTERNATIONAL JUSTICE MISSION, WASHINGTON, DC

    Ms. Burkhalter. Thank you, Chairman Kerry. I have two 
things to thank you for before beginning my testimony. One is 
for the great honor of appearing before four of the U.S. 
Senate's great antitrafficking heroes, Mr. Rubio, yourself, Mr. 
Cardin, and Mr. Durbin. It is really a treat for me.
    The other thing I just have to say is that for this 58-
year-old mom, you have made me awesome to my teen daughters and 
modern and cool. It is not every day one gets to testify with 
David Abramowitz.
    [Laughter.]
    The Chairman. We get it.
    Ms. Burkhalter. I was just waiting, just giving you a 
little moment to appreciate it.
    The Chairman. No. You gave us plenty of time. Thank you.
    Ms. Burkhalter. Thank you for having us.
    My name is Holly Burkhalter. I am vice president for 
Government Relations at International Justice Mission. We have 
15 and soon to be 16 overseas offices. We are a human rights 
service provider. Six of those offices work with local police 
to help actually rescue trafficking victims from both labor 
exploitation and sexual exploitation, and the rest of the 
offices work on sexual assault and other violent crimes against 
the poor and vulnerable.
    Much of what I have to say today is taken from our field 
work in Cambodia and the Philippines and India.
    You do not need me to tell you that this is a sad story; we 
hear about it every single day at IJM. When we pray for our 
clients and for the victims and for the investigators who are 
going into the field and looking for victims of slavery and 
working with authorities to bring them out. We do not always 
succeed and it breaks our hearts.
    But at the risk of minimizing their suffering and pain, 
which I do not mean to do, rather to honor it, I would also say 
that in the year 2012, the story of confronting modern-day 
slavery is actually a good news story. And I will tell you why 
I think that is the case.
    First of all, it is quite clear to me that trafficking and 
slavery can be stopped. Having been in the human rights field 
for 30 years-plus, something of a child worker myself back in 
the late 1970s, I have never seen other violent, massive, 
pervasive crimes respond so quickly to pressure from both 
diplomacy and from local law enforcement. We do not see this on 
rape. We do not see it on genocide. We do not see it on child 
sexual assault. We do not see it on property grabbing from 
widows. But uniquely, because trafficking and slavery is a 
crime motivated by greed and motivated by the desire to make 
vast amounts of money off another's body, it is actually quite 
responsive when the law is enforced. There are all kinds of 
other things that are needed, and I do not need to minimize 
them. Education and development and poverty reduction. But it 
is first and foremost a crime of violence and abuse that must 
be treated as a crime as you said in your opening statement, 
sir, and I could not agree more.
    Let me give you a picture of what it looks like when a 
country that had a real problem with child sexual exploitation 
did something about it and what the numbers can show us, I 
think, by way of encouragement and highlighting something that 
could be and should be replicated.
    IJM was given several years ago a grant from the Gates 
Foundation, quite unique for the foundation, to work on 
improving our antitrafficking and rescue model and our 
perpetrator apprehension. Both those things are integral to 
IJM's work in the field: Victim rescue and perpetrator 
apprehension and accountability. And they helped us do a 
baseline prevalence study in the place we selected to do this 
work which was Cebu in the Philippines, the second-largest city 
in the country which has a significant child sexual 
exploitation problem, sex tourism, a large red light district, 
lots of children in the trade.
    We had an independent criminal research association conduct 
the survey. We taught them how to go looking for minors in the 
sex industry posing as potential customers, and then we got a 
baseline. They found several hundred children. And then we went 
to work with our Philippine Government partners to do 
everything we could to help develop a justice system that was 
predictably and professionally responsive to the crime. We went 
under cover with them. We trained the police. They designated a 
special unit. There were a number of things that were integral 
to the success of the regional antitrafficking task force, 
which eventually rescued about 380 girls and apprehended about 
90 perpetrators. We now have a number of those cases in the 
Philippine courts wending their way slowly. That is an area for 
needed improvement.
    But the part of the story I want to leave with you is what 
we found after 3 years of work--and it really is the Philippine 
Government's success, not IJM's. When we did another baseline 
prevalence study, the investigators found that the availability 
of minor girls in the brothels and karaoke parlors and bars and 
sex entertainment venues in Cebu had been reduced by 79 
percent. Now, it does not mean it is gone forever and it does 
not mean that the Philippines has a Good Housekeeping Seal of 
Approval, but it did show that a concentrated effort, an 
investment by an NGO, not by a government, but in this case by 
an NGO and a wonderful donor--the Gates Foundation--and a 
serious engagement and a long-term engagement with a government 
could make big improvements.
    I will tell you that effective and unified U.S. diplomacy 
was a big part of what helped make that model work. When the 
Trafficking in Persons Office and the embassy and our regional 
bureaus all speak from the same song sheet and are amplifying 
the voices of reformers within the foreign government, then 
something can happen. We do not get that bang for the buck when 
our TIP Office is being undermined by our regional bureaus or 
by an embassy that has lots of other things that are on their 
minds, quite understandably. But if the trafficking issue is 
undermined, then we have the TIP Office out here on the fringe 
and that does not work so well. That will not give you the 
results that we saw in the Philippines.
    The end of that piece of a good news story is that the 
Philippine Government has asked us to replicate the model in 
two other locations and we are doing so. We have gotten small 
grants from both the Trafficking in Persons Office and USAID to 
continue and amplify that work.
    It is just a tiny sliver, a piece of good news, but one I 
think that shows that law enforcement and victim care and 
appropriate prosecution can start to dry up the trade quite 
disproportionately fast because once a number of people go to 
jail, the other people who are in this business look around and 
say, ``hey, I do not want that to happen to me'' and they get 
out of that business.
    A second piece that I think is good news for us in July 
2012 is that the American people from across the political 
spectrum not only support this issue and care about this issue 
but they are demanding that our Government do something about 
it. And I think it is reflected in the wide number of members 
and Senators from across the political spectrum who do care 
about this and are doing something about it. You know, you can 
see it in the original odd couple marriage of Chris Smith and 
Paul Wellstone back in 1999, and it has been that way ever 
since. And that is kind of unique in this town and in the 
international human rights field. It is a joy to work on the 
issue with our friends from across the political spectrum.
    But it gives you not only the opportunity but the 
obligation to do something bigger. You have done many good 
things and it is not enough. And as the Nation that still leads 
the world, we have an American public that is animated both by 
our experience of freedom but also the American experience of 
slavery and that toxic piece of our historic DNA, that wants 
you to do something more and wants the President to do 
something more.
    I think a great model for what can happen when the U.S. 
Congress and the American President work together on a big, big 
problem is PEPFAR where George W. Bush and a democratically 
controlled Senate and a Republican controlled House put 
together an enormous foreign aid package to break the back of 
the modern-day global AIDS pandemic. All of you were a part of 
that and continue to be a part of that, and it has changed the 
world. It has changed the world. We need a PEPFAR for slavery. 
We need Focus Countries like we had in the bill that Senator 
Boxer introduced several years ago, the Child Protection 
Compact Act. We need strategies and we need money and we need 
political pressure directed where the resources go so that they 
will be used well and we need data to monitor how well programs 
are working. It is not impossible. It is not like we do not 
know what could work. There are all kinds of things going on. 
There just is not enough of them. They need to be scaled 
because I can tell you slavery is at scale and the response to 
slavery has to be at scale as well.
    Finally, I will echo my colleagues' support for the TVPRA. 
It just does not look good, when there are innovations in 
slavery and trafficking every day, that we cannot pass the 
innovations we need to keep our tools sharp to deal with it.
    I would also highlight the End Slavery in Government 
Contracting bill that some of you have worked on. It is a 
wonderful piece of legislation moving through the Senate now. 
It was passed by the House. It is another bipartisan effort 
that we would love to see because it cleans up slavery in our 
own labor supply chain in our embassies abroad, and it is a 
must-do legislation this year. I am sure it can be done.
    Finally, I think I would like to just say a word about the 
wonderful tools and institutions that we have to combat 
slavery. The genius of the 2000 act that put in place an office 
to do just this thing has borne enormous fruit over the years. 
We have an annual report. We have a grantmaking program. We 
have the best expertise in the world that works for the U.S. 
Government at the TIP Office. It should be a bureau because 
they deserve to be standing on equal footing. They negotiate in 
good faith--and everyone is in good faith, but they negotiate 
the trafficking issues with the regional bureaus, which have a 
much bigger portfolio. But Congress said we want one office to 
have one portfolio, the antitrafficking and antislavery 
portfolio. They have grown a lot thanks to you and your 
investment in the TIP Office, but diplomatically and 
politically in this town, they are standing about 6 feet lower 
than their interlocutors at the State Department, and it is 
well past time that they should be a bureau.
    I would like to close belatedly by thanking you for your 
kind attention and by thanking my own staff, especially Melanie 
Beifuss and Annick Febrey, for helping prepare this testimony 
and keeping me sane year-round. I would also like to thank your 
staff. It is a delight to work with Emily Mendrala and Paul 
Foldi with Mr. Lugar's staff and, of course, our good friend, 
Ann Norris, and Ariana from Senator Boxer's staff. We love you 
and you have made us so welcome in your offices. It matters 
greatly; it gives us great encouragement. We even tell our 
field offices when friends in Congress care about what is going 
on with them, and it matters to them as well.
    A special word of thanks to Mr. Lugar. I would have loved 
to tell him personally how much he has meant to both the human 
rights movement and every great cause, and I hope you will pass 
the word on to him. Thank you very much.
    [The prepared statement of Mr. Burkhalter follows:]

               Prepared Statement of Holly J. Burkhalter

    Thank you, Chairman Kerry and Senator Lugar for inviting me to 
testify at this important hearing on modern day slavery and ways to 
confront and eradicate it. It is an honor. I also wish to express my 
thanks to you both for having made this issue a priority in the United 
States Senate. My name is Holly Burkhalter, and I am the Vice President 
for Government Relations for International Justice Mission (IJM.) IJM 
is a human rights organization with 15 overseas offices that works with 
local governments to rescue victims of sex trafficking and labor 
slavery and helps local police and prosecutors apprehend and prosecute 
perpetrators. Our antislavery offices are in the Philippines, Cambodia, 
and India.\1\ IJM's on-the-ground experience in combating trafficking 
will inform my recommendations today for a roadmap for the coming 
decade.\2\
---------------------------------------------------------------------------
    \1\ IJM offices in Africa and Latin America investigate the crimes 
of sexual assault of children, property expropriation from widows and 
orphans, and police abuse of power.
    \2\ In this testimony I use the term ``trafficking'' in the way it 
is defined in the TVPA. As such, I view it having the same meaning as 
slavery. Accordingly, the words are used interchangeably in this 
document.
---------------------------------------------------------------------------
    Why does slavery persist today? Mr. Chairman, you have asked us to 
reflect on the major factors that facilitate the proliferation of 
trafficking and slavery around the world. Explanations abound for the 
modern prevalence of slavery, including poverty, women and girls' 
subordinate status, the caste system, lack of education, cultural 
traditions, migration, and so on. These and other factors are of course 
part of slavery's context, and investments in such things as poverty 
reduction and girls' education can and should be directed toward 
slavery-prone countries. But it is a mistake to imagine that the worst 
forms of trafficking cannot be eradicated until poverty has been 
abolished, or all children are educated, or international migration has 
been rationalized.
    The most important feature of slavery is that it is a crime. There 
are victims, and there are perpetrators. Furthermore, it is a violent 
crime but it is also an economic crime that generates enormous wealth 
for perpetrators, be they traffickers, pimps, slaveowners, or complicit 
government officials. Unless and until local police, prosecutors, and 
judges join forces to deter the crime of slavery by providing a 
credible and predictable threat of imprisonment for those engaged in 
it, there are no natural limits to its spread.
    If donor governments and international agencies were to expose and 
stigmatize governments that are complicit in or tolerant of slavery and 
provide extensive assistance to help deserving governments build robust 
public justice systems that locate and free slaves and apprehend 
perpetrators, this crime would diminish and eventually vanish.
    What tools do we have to confront slavery? When Congress enacted 
the Trafficking Victims Protection Act in 2000 there weren't many 
models for study and replication. Today, thanks to the Office to 
Monitor and Combat Trafficking in Persons, USAID, nongovernmental 
organizations, and U.S. diplomats in Washington and around the world, 
we have a whole array of effective tools--diplomatic, financial, 
technical, and political--that can inform U.S. antitrafficking policy 
in the coming decade. I have seen some of the most promising in 
countries where IJM is working.
    Diplomacy: As you know, the TVPA includes minimum standards by 
which to evaluate governments' response to trafficking and 
authorization of an annual antitrafficking report. Over the past 10 
years, the TIP Office has fielded talented and hardworking researchers, 
analysts, and diplomats to gather information on the phenomenon of 
slavery around the world. Their excellence is apparent in the quality 
of the report. The creation of three ``Tiers'' (and eventually a 
fourth, the Tier 2 Watch List) to rank countries gives the report 
additional seriousness and weight. These tools have been so valuable to 
the cause of eradicating slavery that other human rights interest 
groups, such as international women's rights advocates, are requesting 
a ``TIP Office'' of their own.
    Not surprisingly, there are sometimes tensions between the TIP 
Office, which has only one mandate--to confront slavery--and the State 
Department's regional bureaus and embassies, which have a host of 
issues and concerns to steward with foreign governments. This reality 
should not be a criticism of the TIP Office or a deterrent to TIP's 
monitoring, reporting, and diplomacy. Congress created the office with 
a specific antitrafficking mandate precisely because the traditional 
bureaucracy was not giving the issue the prominence it deserves. The 
TIP Office exists to do that. In my view, the TIP Office should not be 
encouraged to water down its mandate or conform to the broader mandate 
of the regional bureaus or the embassies. Rather, the regional bureaus 
and embassies should be instructed to step up their own messaging to 
amplify the TIP Office--and Congress'--concerns about modern day 
slavery.
    This committee's legislative language in the Trafficking Victims 
Protection Reauthorization Act, S. 1301 would, if enacted, engage 
embassies and regional bureaus more directly in the fight against 
modern day slavery. The SFRC recommended that antitrafficking 
specialists be named at U.S. Embassies to help collect information and 
convey concerns on a regular basis. The provision also requires 
regional bureaus to be engaged in developing country antitrafficking 
strategies. While the TIP Office should retain leadership on U.S. 
antitrafficking policy and drafting authority for the TIP Report, your 
provision would enhance diplomacy, reporting, and a unified U.S. voice 
on slavery. I hope and expect that the Senate will enact S. 1301 before 
adjournment this year and send it to the House for consideration so 
that these and other important provisions can take effect in 2013.
    When the TIP Office and regional bureaus or embassies are out of 
sync, governments failing to meet minimum standards to eradicate 
trafficking get mixed messages. Invariably slavery eradication is the 
loser--and that means children, women, and men in slavery are the 
losers. Speaking in a strong and consistent voice about trafficking and 
slavery, with regional officials and embassy staff endorsing and 
amplifying the TIP office's concerns does not mean sacrificing other 
U.S. interests. Surely our diplomatic corps is capable of advancing an 
antislavery policy while simultaneously engaging effectively on 
economic, military, and geopolitical concerns.
    I have seen how effective the U.S. Government can be when it does 
speak in one voice about trafficking. The Philippines is a country with 
a significant trafficking/slavery problem and its Government was not 
taking significant steps to address it. Accordingly, the State 
Department ranked Philippines on the Tier 2 Watch List. Pursuant to 
2008 changes to TVPRA, countries could only stay on Tier 2 Watch for 2 
years and then would be downgraded to Tier 3 if substantial 
improvements were not forthcoming. The U.S. Government used this 
political tool to encourage the Government of the Philippines to 
undertake serious measures to address both labor and sex trafficking. 
The U.S. Embassy, led by Ambassador Harry Thomas, Jr., engaged the 
Philippine authorities with the same strong message they were hearing 
from JTIP authorities. The Government of the Philippines took the 
matter very seriously. Among other measures, the authorities issued a 
judicial circular that placed antitrafficking cases on a fast track. 
While prosecutions are still slow, the circular has begun to make a 
difference.
    The Philippine Government solicited IJM's help in scaling up 
investigations of child prostitution, rescue, and apprehension of 
suspected perpetrators. IJM's collaboration with local police and 
judicial authorities in Cebu under the auspices of a grant from the 
Gates Foundation had resulted in a 79-percent reduction in the 
availability of children for exploitation in Cebu's sex venues. The key 
to these important results was the police designating a specific 
antitrafficking unit which received training and worked closely with 
IJM investigators, lawyers, and social workers. The Government of the 
Philippines is now replicating that model with IJM in Manila and in 
Pampanga (Central Luzon).
    Another innovation in Cebu that is now being replicated elsewhere 
in the Philippines is the creation of a separate, comfortable, victim-
friendly office to receive trafficking victims where they can meet with 
social workers and provide their testimony to judicial personnel. 
Before the creation of this separate space, called ``Her Space,'' by 
IJM in collaboration with the Philippines Department of Social Welfare 
and Development, victims were questioned in the presence of 
perpetrators.
    In recognition of these and other efforts, the Philippines was 
removed from the Tier 2 Watch List last year and raised to Tier 2. The 
Government of the Philippines deserves full credit for the advancement. 
But the U.S. Government's effective and unified diplomacy played an 
important role, and reflects well on the Embassy, the Regional Bureau 
and the TIP Office.
    Law Enforcement: I'd like to single out the importance of 
professional law enforcement as an area where donor governments and 
international development institutions can and should make strategic 
investments. Donors have, for good reason, been reluctant to invest in 
police forces. Ill-disciplined police in many, if not most, countries 
around the world actually prey upon the poor. As the expression goes, 
if you are a poor person who had a crime committed against you, you 
have a problem. If you go to the police, you have two problems. Nowhere 
is the problem of police abuse more apparent than in the abuse of women 
and men in the sex industry. Serious human rights organizations, have 
reported extensively on violence, illegal detention, theft, rape, and 
other abuses by law enforcement officials against those in 
prostitution. In many countries police themselves are complicit in 
trafficking or ignore it. It is understandable that donors are wary 
about strengthening an institution that is itself implicated in 
trafficking.
    It is not acceptable for police to abuse, arrest, and extort money 
from women under the cover of ostensible ``antitrafficking'' sweeps. 
Roundups where dozens of women are swept into prisons, only to be 
released when their pimps pay off a bribe, have absolutely nothing in 
common with effective and professional policing. Donors and NGOs that 
work with local police can and should condemn such behavior, which 
hurts innocent women and sets back the antitrafficking cause. In IJM's 
experience, mentoring and professionalizing police to rescue 
trafficking victims and apprehend perpetrators also improves their 
behavior with regard to adults in the sex industry.\3\
---------------------------------------------------------------------------
    \3\ For more information on police and trafficking, see http://
www.antitraffickingreview.org/, ``Sex Trafficking, Law Enforcement and 
Perpetrator Accountability,'' by Holly Burkhalter, June 2012.
---------------------------------------------------------------------------
    One important innovation that was immensely helpful in improving 
the capacity, competence, and will of local police to rescue 
trafficking victims and apprehend perpetrators is a specialized local 
force designated for this work. In Cebu, for example, IJM worked 
closely with a newly created Regional Anti-Trafficking Task Force (RATT 
Force) whose sole function is enforcement of local antitrafficking law. 
By keeping key police and officers within the force (as opposed to 
rotating them out), giving them specific duties, and providing through 
IJM extensive training and mentoring the Cebu RATT Force was the key to 
sharply reducing child victimization there.
    IJM has had a similar experience in Cambodia, where the Anti-
Trafficking and Juvenile Protection force, under the excellent 
leadership of Gen. Bith Kim Hong, has largely ended the exploitation of 
young children in the sex industry. Recently, the ATJPF led efforts to 
investigate and prosecute a corrupt major in the municipal division of 
the ATJPF who was receiving kick-backs from brothel owners for 
protecting them from police rescue operations. Major Rattana (who fled) 
was convicted in absentia. This is an exceedingly positive development 
for Cambodia that speaks well for the Cambodian Government, which, to 
our knowledge, has not previously tried and convicted a member of its 
own police officials for complicity in trafficking.
    State Department Bureau: Given the importance of its work and the 
enormity of slavery around the world, the United States Government's 
antitrafficking capacity should be enhanced considerably. IJM strongly 
recommends that the State Department Office to Monitor and Combat 
Trafficking be upgraded to a State Department Bureau. There are several 
reasons for this recommendation. First, the U.S. Government should do 
everything in its power to recruit and retain the best of its 
personnel, including career Foreign Service officers, to the cause of 
combating slavery. Joining an office does not offer the same 
opportunities for advancement within the diplomatic service that 
joining an embassy or a bureau does and most likely discourages some 
excellent officers from joining it. Second, it is vitally important 
that the Office's Coordinator have the same status as his counterparts 
at other State Department Bureaus. There is a stature gap between an 
Office Director and an Assistant Secretary that does not serve the 
antislavery cause well.
    Reporting and Monitoring: Honest and thorough reporting on 
trafficking issues and government's responses are the necessary 
backbone of effective diplomacy. Fortunately, the State Department TIP 
Office is home to our Nation's brain trust on modern day slavery--the 
highly expert men and women who research, monitor, and write the annual 
State Department Report on Trafficking in Persons. Many of those 
individuals have been in that role since the office was created. I 
would single out Mark Taylor, who leads the research and production of 
the report, as one of the world's greatest experts on modern day 
slavery in the world.
    The TIP Report's usefulness as a diplomatic tool was enhanced 2 
years ago when Secretary Clinton directed the TIP Office to include the 
United States in the report, along with 186 countries. In the past, the 
Justice Department has issued a separate report on the U.S. 
Government's response to trafficking. By including it in the actual 
volume that foreign leaders read, the U.S. has signaled its willingness 
to be judged by the same standard as the rest of the world--standards 
in the TVPA that are drawn directly from international law and 
universally applicable.
    The quality of the report is very high, but I believe that 
political considerations occasionally erode the ranking system. We note 
this especially with respect to countries on the Tier 2 Watch list. A 
number of countries that did not actually meet Tier 2 standards were 
``promoted'' to it from the Tier 2 Watch List at the end of the 2-year 
limit. There are a handful of countries on the Tier 2 Watch List for 
the second year right now, including China, Russia, and Uzbekistan that 
certainly do not meet the Tier 2 standard. But the State Department 
because of political considerations unrelated to trafficking may feel 
that they should be moved up to Tier 2.
    Rewarding countries with an improved TIP tier that they do not 
deserve is not what Congress had in mind when it passed the TVPA in 
2000. There is general agreement among policymakers who care about 
trafficking and NGO's that the Tier 2 Watch List is an appropriate 
category to maintain. The standards for each of the four tiers are 
well-known by policymakers at home and abroad, and are a realistic and 
appropriate ranking process. Unwittingly, the automatic up-or-down-
grade is complicating the work of assessing a country's position on one 
of four tiers. Even though the ``up or out'' provision was extremely 
helpful in persuading the Government of the Philippines to address 
trafficking seriously, elsewhere the provision has been used to move 
undeserving countries up to Tier 2, rather than down to Tier 2 where 
they belong. This year the Congress should maintain the Tier 2 Watch 
List as a fourth tier but eliminate the 2-year time limit.
    One final recommendation about the JTIP Report deserves mention. A 
recently released report by the State Department Office of the 
Inspector General recommends ending the publication of the report in 
book format and making it available exclusively online so as to accrue 
a small cost savings. I respectfully disagree with this recommendation 
and urge the committee to insist on annual publication. This report is 
a precious tool in the hands of people all over the world. Many do not 
have access to the Internet. It is important that it be physically 
present on the desk of every diplomat, judge, prosecutor, and police 
commander who serve in slavery-burdened countries. It is important that 
it be on each of your desks, and that it be handed to visiting 
officials. Please do not throw away a tool whose importance has been 
acknowledged by antislavery activists around the world, including our 
own.
    Resources: We in the NGO community are grateful to the Congress for 
protecting antitrafficking funds from cuts and even increasing them 
modestly in the past several years. We do not take it for granted in 
the current difficult budget climate. Having said that, however, we 
know, and you know, that eradicating modern day slavery requires more 
resources than are available. The world needs to see effective models 
of slavery eradication that can be documented and replicated. Our dream 
is for the President and Congress to do for slavery what President 
George W. Bush and the 108th Congress did for global HIV/AIDS.
    The State Department JTIP Office and USAID should each be resourced 
to engage the struggle effectively around the world. USAID's February 
2012 Counter-Trafficking in Persons Policy is excellent and provides an 
outstanding framework for the Agency's contribution to slavery 
eradication which I commend to your attention. IJM appreciates USAID's 
commitment to data collection and impact assessment. The antislavery 
movement desperately needs information and data from various 
investments and innovations to rescue slaves, apprehend perpetrators, 
and deter the crime. USAID's expertise in community-based solutions 
(including development models for successful, community-supported 
civilian police forces) is highly valuable to the field.
    I would also like to applaud USAID's Counter-Trafficking Code, 
which includes high standards for USAID employees that extends, 
importantly, to contractors, sub-contractors and grantees. IJM has 
called for all U.S. agencies to adopt comparable standards.
    Getting the United States House in Order: In closing, I wish to say 
a word about S. 1301, the TVPRA. As you know, the bill passed out of 
the Senate Judiciary last October and is still awaiting a vote by the 
full Senate. We're missing a critical opportunity to sharpen our tools 
to fight the crime of trafficking. The Senate bill includes a number of 
important innovations, including a provision to pursue slavery 
eradication in several ``focus countries,'' enhanced protection for 
victims of trafficking in the U.S., and increased capacity for JTIP to 
respond to situations of emergency and disaster. Failure to reauthorize 
this landmark legislation for the first time in 12 years sends the 
wrong signal about U.S. leadership on this issue to the rest of the 
globe and sends us a step backward. We need to pass S. 1301 this year.
    One other piece of significant legislation will be before the full 
Senate in the near future: the ``End Slavery in Government 
Contracting'' bill, sponsored by Senators Blumenthal, Rubio, and 
others. The legislation, if enacted, would require contractors of 
overseas labor for U.S. Embassies and bases to adhere to certain 
standards that would eliminate bonded labor slavery among third country 
nationals working in such countries as Iraq and Afghanistan. Current 
standards and practices by the Department Of Defense have not 
eliminated the problem of subcontractors pocketing taxpayer money and 
exploiting poor men and women who had been promised well-paying jobs. 
Both the House and Senate have held extensive hearings on this matter, 
and there has been considerable media exposure of the problem. S. 2234 
offers a sensible roadmap to end exploitation, and in some cases out-
right slavery, in overseas operations. When this measure comes up, most 
likely in the context of the national defense authorization, I urge all 
Senators to support it.
    In conclusion, I would like to thank the Chairman for his attention 
to the issue of human trafficking over many years. I would also like to 
say a special word of thanks to Senator Lugar, who is one of the great 
foreign policy leaders of our day. It has been a great honor to appear 
before you, Senator Lugar. I would want this occasion to reflect how 
grateful I am to you for your commitment to the great foreign policy 
issues of our day, including trafficking, violence against women and 
girls, and genocide. I also wish to recognize and thank your superb 
staff, who have always welcomed me and other NGO representatives. Their 
excellence reflects on you and on the Senate Foreign Relations 
Committee.

    The Chairman. Well, we certainly will. Thank you very much, 
Ms. Burkhalter. I really appreciate all of your comments and 
particularly the expressions of thanks to the staff and others.
    I want to thank all of you for the very important testimony 
that was presented here today. And I know my colleagues are 
going to want to dig in a little bit and we are going to want 
to explore this.
    Let me begin, if I may, by--first of all, I want to thank 
Humanity United and the International Justice Mission for their 
long commitments on this and for all that you have 
accomplished. I remember back in the year 2000--1999 actually--
Senator Frist and I began the effort to write the first AIDS 
bill which became PEPFAR ultimately, and I am proud of that and 
I am proud of what we did particularly getting the support of 
Senator Jesse Helms and ultimately passing it in a divided 
Congress, but we came together around that. And I think 
everybody can be proud of the story that followed from that, 
and it really is predicate for what could be done here and I 
want to explore that a little bit now if we can because I think 
we can build a critical mass to do more.
    It is disturbing, obviously, that there are as many people, 
that it has probably grown, not diminished even though we have 
made progress in certain places. And so there has to be a much 
more concentrated global effort on this.
    I particularly want to thank Minh and Monica and Jamm for 
coming here today. I think it is so important for people to be 
able to see real people that it has affected and whose lives 
were turned completely upside down but who have turned their 
lives back by yourselves, by your courage. It is really a 
remarkable thing and we are very, very grateful to you for 
coming here today and being willing to put yourselves out there 
as leaders now.
    One of the things I want to ask--and first, just as a 
matter of information, with respect to both Minh and Monica, 
the crimes that you describe and the lives that they led, were 
those both in the United States also?
    Ms. Pinkett Smith. Yes.
    The Chairman. So all three represent extraordinary----
    Ms. Pinkett Smith. What trafficking looks like in our 
country.
    The Chairman. In our own country.
    Ms. Pinkett Smith. Absolutely.
    The Chairman. Can you share with us perhaps a little bit 
more about at the end Ms. Burkhalter was saying do something 
more. And I wonder if each of you could sort of flesh that out 
a little bit now. What is the single most important thing that 
we can do. Give us an order of priorities, if you will, of what 
you think would have the most impact here. Needless to say, I 
think if there were a little more naming and shaming and public 
face to some of this, it would be particularly helpful, and I 
think we ought to work a way into this, into the prosecution 
and tracking of this in order to guarantee that happens more.
    I used to be a prosecutor. I spent a number of years 
running one of the 10-largest county prosecution offices in 
this country. And frankly, until I came to the Senate and began 
to learn about this off of this committee, I had no idea that 
these kinds of things were happening right here in our own 
country in such a broad criminal enterprise without the kind of 
focused attention of the Justice Department and others that I 
think we ought to have. And there is a huge question as to why.
    So maybe you could share with us what that order of 
priority might be that we can step up our effort here within 
the Congress to focus on this. Anybody who wants to lead off.
    And the other question I wanted to ask you, Jada, 
particularly is what have you learned in the course of Don't 
Sell Bodies and in your involvement with these survivors about 
how you make this transition from victim to survivor and 
whether there is, obviously, much more that we could be doing 
with respect to that for people.
    Ms. Pinkett Smith. Yes. I believe that we need more 
adequate funding for programs that can actually, first, protect 
young women and men who are victims of trafficking and then 
also the programs that help transition our young people from 
those traumas into being able to create and develop lives so 
that they are not only survivors, but they are thriving. These 
young ladies that are here with us today are young women who 
are not just surviving but they are thriving.
    The Chairman. Did they each come through a program?
    Ms. Pinkett Smith. Monica has come through a fantastic 
program that I believe is based in Oakland called the MISSSEY 
program which happens to be a very, very strong program that I 
got introduced in going to the HEAT Watch conference in 
Oakland.
    And Minh, no. But as I said before, Minh is at Berkeley. 
Minh is also very active with the Californians Against Slavery.
    And we are going to work very hard in California to push 
the CASE Act that we have right now which will be the toughest 
antitrafficking law that we have in this country.
    The Chairman. Mr. Abramowitz, Ms. Burkhalter, can you speak 
to the order of priority?
    Mr. Abramowitz. Well, Mr. Chairman, you have really put 
forward a very difficult challenge because, as I think I laid 
out and as I laid out in my testimony, one of the major 
challenges with respect to this phenomenon is that it covers so 
many different areas. You have got labor. You have got crime. 
You have got human rights. You have got child welfare. So 
really to try to talk about things in isolation I think is 
somewhat of a mistake. We need to think about an overall, 
integrated approach.
    For example, in the U.S. law enforcement context, I think I 
would just point to two things that we need to do. One is, I 
think that we need more training at the local level including 
our own Federal agencies but also the Wage and Hour Division 
for the Department of Labor and also State and local law 
enforcement. These are the people who first come in contact 
with these victims if they are involved in a situation where 
they are doing a law enforcement investigation, and I think 
some of the problems that we have heard about today go to the 
point where they do not identify these individuals as 
trafficking victims. They think that they are prostitutes or 
they are illegal aliens or whatever the situation is, and then 
it just goes into this very negative slope downward in terms of 
trying to not only help these individuals but also using them 
to craft the various crime organizations that are out there. We 
need to be able to have them identified. Then we need to have a 
comprehensive service approach. I am somewhat familiar with the 
Oakland program. I have heard very, very good things about it.
    And it is really this integrated approach to victim 
services. In particular, there are actually, under the TVPA and 
other things that Congress has done, a number of different 
programs that are available, but they are spread out among 
various different entities in the Federal Government and the 
State government. And one of the things that many service 
providers ask for is there needs to be additional money for 
some sort of case management system so that an individual--
whereas one individual can say, OK, if you need that, let us go 
to HHS. Oh, you need that? The Office of Victims Crimes at the 
Department of Justice actually does very well on that one. Oh, 
let us go to the local law enforcement because California 
happens to have this great program. So you need someone who 
knows, who has expertise, and can really bring that together.
    And then I would say just on the international front, Mr. 
Chairman, I think there is a similar sort of approach that 
needs to be done as well. We know about how to deal with 
survivors and how to prevent trafficking, but we have to create 
a similar integrated approach. You know, it used to be that 
awareness alone was the idea. Let us just create awareness and 
people will move. It is very unrealistic. Between the push 
factors of gender discrimination, social discrimination, and 
other reasons, there are ways that we need to overcome in a 
much broader fashion.
    Thank you for the time, sir.
    The Chairman. Thank you very much.
    Can I ask the cameras to minimize the clicking, if 
possible? I know you have got to take some pictures, but you 
must have more than a million pictures of Will Smith in the 
last half hour.
    [Laughter.]
    Mr. Abramowitz. But we don't have enough pictures of Holly 
Burkhalter, Mr. Chairman.
    [Laughter.]
    The Chairman. Holly, did you want to answer that?
    Ms. Burkhalter. Just real quickly. I would just reiterate, 
first of all, you have some models, tools, diplomatic and 
foreign aid. And what we need is political support. You know, 
for example, governments really do care where they land on the 
four tiers that are in the law that you passed and that the TIP 
Office, in collaboration with the regional bureaus, assigns. 
Those that get downgraded may not like it very much, but they 
care a lot. We hear about it in the field because they come and 
say ``what can we do to get off that bad tier?'' I mean, that 
is exactly what happens. At IJM we are there to work with the 
governments and help bring them along and get them to rescue 
kids. We are not going to be involved in public naming and 
shaming. But others need to be. We are there to be technical 
assistants on rescue and perpetrator apprehension.
    But if the tier-ranking process becomes politicized and 
becomes undermined and the report becomes weakened because of 
other considerations, then we have lost this marvelous tool 
that has, I think, made the United States response to 
trafficking and slavery since 2000 so strong.
    And I will tell you--you know this--the executive branch 
cares about what you care about. If you have ambassadorial 
nominees up here and you ask them about trafficking and slavery 
in the country where they are going and when the administration 
does something bone-headed and gets a letter from Republican 
and Democratic Senators saying what is up, they care and they 
listen and it supports the movement inside the bureaucracy. 
Please do not neglect your own significance in terms of 
boosting strong diplomacy.
    Second of all, I really do not think that we can expect to 
see trafficking confronted successfully around the world or at 
home without money, and I think the American people want the 
money spent for this. They want it spent successfully and in 
outcome-producing, carefully monitored interventions that are 
collaborative with governments that want to respond well. We 
need many, many more models like that. That is why I like the 
PEPFAR model of making long-term commitments. But you could add 
in a sort of MCC component where you have an agreement, you 
have a strategy that holds up and it is going to bear fruit, 
and the receiving government is accountable for measurable 
outcomes. I think the American people would love that.
    And we could build the knowledge base on what worked. I 
mean, what can Brazil teach India? You know, what kind of 
interventions for survivors worked in Cambodia and should be 
looked at for Vietnam? I think we are just at the beginning of 
that conversation. It could be built but it is not going to be 
built without a large investment, and it is one I think we can 
afford even in these tough times.
    The Chairman. I appreciate those answers. My time is up. I 
want to pass on and get everybody else involved here.
    But here is what I am very clearly drawing from this, and I 
think I want to work with my colleagues here, each of whom have 
an interest in this predating this. The legislation we have 
now, I think, is frankly too tame and too limited compared to 
what this needs. And thinking back to the experience that I 
alluded to a moment ago about prosecuting, I started one of the 
first victim witness programs and several task forces, 
including rape counseling and other things, and it was not 
until we created the concentrated effort that the awareness 
grew and people began to do exactly what you have just said, to 
sort of teach people about it or talk about it and integrate it 
into what we were doing.
    This needs to be more integrated. This needs to be 
clarified in a way that instructions are going out to assistant 
U.S. attorneys, that there is coordination with the district 
attorneys offices, that there is a national understanding about 
this, and that investigations are undertaken with the 
interconnectedness, the connecting of the dots sort of 
integrated into that. And I think we can do that. I think we 
have the ability to make that happen in a legislative effort. 
So I am going to try to work with my colleagues here to see if 
we cannot piece that together. It is not dissimilar to what we 
did in the context of AIDS, but it has a whole prosecutorial/
law enforcement component to it as well as victim witness 
services and other kinds of things. So I think you have clearly 
put that on the table in a way that inspires me to at least say 
that I think we ought to try to piece that together, and we 
will do that.
    Mr. Abramowitz. And, Mr. Chairman, just briefly. The 
National Association of Attorneys General for the 50 attorneys 
general around the States have a very strong interest in this 
matter, and I am certain that would be very interested to work 
with you on this.
    The Chairman. Well, we work with them closely. We work with 
them anyway. But I promise you we will follow up with them and 
work with them very closely.
    Senator Rubio.
    Senator Rubio. Thank you. Thank you, Mr. Chairman, for 
having this hearing. I think this is fantastic. I appreciate 
the time you have given it and all of you for being a part of 
the panel today.
    I care a lot about the international component of this, but 
I think one of the things that gives us credibility to address 
it is the stuff we are doing here domestically at home. And let 
me just share with you my experience. And I think, Mr. 
Abramowitz, you started to touch upon this, and I want to dig 
deeper on it.
    In our work on this, both in my time in the State 
legislature and here, one of the things I run into is this 
conflict. By the way, what I am about to say in no way should 
be taken as an assault on the intentions of the people that are 
involved in this. But some folks in law enforcement and 
interested parties who struggle with the notion that the young 
ladies and others who are being trafficked are actually victims 
as opposed to perpetrators--I struggled with trying to explain 
to people that, in fact, these folks are not willing 
participants in a criminal enterprise even if they are 21 or 19 
or 20. In essence, it is hard to explain that to people because 
when you interact with a victim, they have been so emotionally 
battered and so psychologically battered that they may act like 
a willing participant but, in fact, they have been trapped by 
those circumstances. I am probably not explaining it right, but 
I think you get the gist of it. And it has been difficult to 
interact with some in law enforcement who want to have the 
ability to treat them as perpetrators, in essence, to put them 
on the stand, to force them to testify against the pimp or the 
trafficker, and more importantly, to be able to punish them. 
And it has gotten really difficult to overcome that with some 
groups.
    I was hoping we can dig into that a little bit deeper today 
not just through your testimony here but when we leave here 
today because I think it is one of the things that is holding 
us back from making more progress.
    There was a State legislative initiative this year in 
Florida that created a safe haven, basically a safe harbor for 
people who have been trafficked. And we ran into some 
resistance from law enforcement. That was ultimately overcome 
about not being able to put the victims in jail and treat them 
as willing participants. I think you get the gist of what I am 
getting at.
    So you have probably encountered that as well, and I do not 
know what we can add to the debate about that today. I would 
love to hear your insight on that. And I hope we will 
concentrate more on that because it is really one of the things 
that is holding us back from getting even more people on board.
    Mr. Abramowitz. Senator Rubio, I think this is an issue 
that really harkens back to the very beginning of the efforts 
to combat human trafficking. You know, when I was on staff on 
the Foreign Affairs Committee and we had our first meeting with 
the Justice Department to try to discuss implementation, this 
issue immediately came up. These individuals are part of the 
conspiracy and we need to turn them against their traffickers 
so that we should withhold assistance, we should withhold 
various things until they are willing to testify.
    And I think one of the pernicious aspects of that 
particular attitude is that it makes the victims more afraid of 
law enforcement. So the very thing that they are trying to 
accomplish, which is to try to bring the victims out and then 
perhaps, if they can, be as brave as some of the women behind 
me and come forward with their stories, then actually prosecute 
them, they are actually diminishing that.
    Now, I will say that we have made strides in this area. I 
think that the whole notion of a victim-centered approach, 
which was sort of the buzzwords that were created in the Bush 
administration, which they have really been trying to 
implement, have made a difference. Yet, there is still a 
prosecutorial imperative to try to get the bad guys, and that 
creates an incentive to try to turn these often women but also 
men and boys to try to provide testimony when they are not 
ready for it.
    And I guess I would say that the real challenge in this 
area--and I think you felt this when you were in Florida--is 
that even though at headquarters you do see evolving approaches 
on this score--and they really do believe this--when you get 
out in the field, I have talked in candor with DHS and they 
will say, ``yes, we do have field agents who still just see 
these people as illegal prostitutes who need to be thrown out 
of the country right into the hands of their trafficker back in 
Mexico who will then be retrafficked right back across the 
border.'' So I think that is the real challenge. I always try 
to get State and local law enforcement and also in the field 
people understanding this. That requires training and I think 
with some of the work that we are trying to do to try to bring 
civil society in closer partnership with law enforcement so 
that they can try to really educate them as to the needs here.
    Ms. Pinkett Smith. To add to what you were just saying, 
which I feel very strongly about, I also think it could be 
helpful, too, to have support for survivor leadership that can 
help with that education. Many of us who speak about this 
issue--we have secondhand information or thirdhand information 
versus we have survivors that have firsthand information and we 
have a lot of survivors out here who are willing and very 
capable to lead us in these efforts as well. So I think that 
that could also be an aspect of our education and continue to 
learn what this is about and what it looks like.
    Mr. Abramowitz. I totally agree with that.
    Ms. Burkhalter. If I could make a quick comment. We work 
internationally and domestic issues are not my expertise, but I 
have had the good fortune to talk with many of my fellow 
antitrafficking friends.
    And one of the issues that troubles me greatly is the fact 
that something like 80 percent of the children who are picked 
up in prostitution on the streets come out of the foster care 
system. And the foster care system can be literally a training 
ground for children to be pimped out. They are abused in foster 
care. They are on the street. They get picked up. They go to 
juvenile detention. They are abused in juvenile detention. When 
they get out, they have no place to go and they have no home, 
and they are back on the street again. There has got to be a 
stop to that immediately. If jail is the only safe place for a 
child who has had crimes committed against them, then something 
is very badly broken.
    We are working in IJM, in collaboration with the Polaris 
Project, to try to get State laws passed that would require 
this safe haven approach that you referred to, Senator Rubio. 
New York has one. They are hard laws to pass because they cost 
money. But giving a child from the streets a safe place to live 
and caregivers who love them and trauma-focused care and 
getting them health care and mental health care and life skills 
and schooling--you do not get that in juvie. The only way to 
break that cycle is to start treating child victims as exactly 
what they are, and we are not doing it in the United States. 
And do please take a look at that foster care system. There is 
legislation out there and it deserves a look.
    Senator Rubio. Thank you. My time is up. My only comment--
and you might be able to help me with this afterward--is it 
would be great--and maybe it exists--if there were a, for lack 
of a better term, speakers bureau of survivors available that 
we could use to interact with both folks who I think need to be 
convinced about the victimization aspects of this, but also for 
educating young people who might be susceptible. I do not know. 
Maybe that exists already if there is such a place, but I would 
love to know about it.
    Thank you.
    The Chairman. Thank you, Senator Rubio.
    Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman. Thank you 
all.
    It is horrifying to think about what is going on sometimes 
right in our neighborhoods and certainly around the globe. To 
me, when we just look at the issue of children, the facts are 
that today right now 5.5 million children are somehow being 
forced into labor that they do not want to do that they should 
not be doing. The total number of people, 21 million people, 
right now as we sit here and 5.5 million of them kids. So we 
need to have a zero tolerance starting with the kids, just zero 
tolerance. And I want to talk a little bit about that and ask 
you some questions.
    Ms. Pinkett Smith, I thank you so much. You know, in 
California, we see a lot of celebrities and many of them do 
wonderful things. You are one of those. I thank you so much. 
And I thank your whole family because we all know when one puts 
on the uniform of social justice, the whole family puts it on. 
And I am very, very grateful.
    So in your testimony, you tell the stories of three brave 
young survivors who are here, and their stories are so 
important because they focus on America. And I know, because I 
have asked, that each of them experienced--Minh, Monica, and 
Jamm--this horror in California and the cities that were 
mentioned to me were Oakland and Los Angeles and San Jose. Is 
that correct?
    Ms. Pinkett Smith. Yes.
    Senator Boxer. And I have a home in Oakland, and this is 
going on right in my neighborhood. There is no question about 
it.
    And I know about HEAT Watch, which stands for Human 
Exploitation and Trafficking Watch, which you have been 
involved in, Ms. Smith.
    And so instead of going into all that, I want to ask you 
about Prop. 35 because it is a chance----
    Ms. Pinkett Smith. Yes, it is.
    Senator Boxer [continuing]. To get the word out.
    Mr. Chairman and colleagues, our State has a measure on the 
ballot, Prop. 35, so that Californians can take a stand against 
human trafficking. And what it does is some of the things you 
were talking about. It would increase prison terms for human 
traffickers. It would require convicted sex traffickers to 
register as sex offenders. It would require all registered sex 
offenders to disclose their Internet accounts. It would require 
criminal fines from convicted human traffickers to pay for 
services to help victims so that we would have some resources 
to match what we are trying to do here with our resources being 
limited, unfortunately, and in my view wrongly, but that is 
another debate for another time.
    So I want to ask you--I think both Mr. Abramowitz and Ms. 
Smith know about this proposition. Can you give us a little bit 
of discussion about how it is going and do you feel comfortable 
and confident? Do you have a lot of endorsements?
    Ms. Pinkett Smith. Oh, absolutely. I would say that we have 
gained a lot of support as far as the prop is concerned. We 
still have a ways to go as far as awareness and getting people 
to understand, once again, how important it is to have these 
laws in place because this is something that is actually 
occurring in our own country, and being that California--we 
have three of the major hotspots in regards to trafficking. But 
I would say that, yes, we are gaining a lot of support. I feel 
very confident.
    Senator Boxer. Good.
    Ms. Pinkett Smith. I feel very confident. And we are going 
to go, starting in September, real hard campaigning for that 
prop.
    Senator Boxer. Good. And before I ask Mr. Abramowitz, I 
would like to take a page out of what Senator Rubio said. I 
think for that proposition to gain credibility, hearing the 
stories of these young people would be very, very helpful to do 
that. Whatever I can do to help, whether we have a few fora 
around the State, whatever, let me know if I can be of help.
    Ms. Pinkett Smith. OK, thank you.
    Mr. Abramowitz. Well, briefly, Senator Boxer, I just want 
to say that another factor here is Attorney General Kamala 
Harris and the work that she is doing. As you know, she is a 
huge leader in this issue, has been for years, and she is in 
the process of doing a statewide review of the activities of 
law enforcement, et cetera to try to determine what the next 
steps are. And I think that that report, which hopefully will 
be due well before the November elections, can really be a 
platform to really talk about how these issues are so important 
and create greater awareness about the proposition and also 
perhaps a platform to try to bring out some of these stories.
    Senator Boxer. Well, we owe it to these three women who 
came forward to get that done.
    Ms. Burkhalter, let me thank you for everything you do. You 
thanked us but you are the leader and we are just following 
because we know that you speak truth to us.
    I want to ask you about a specific case because sometimes 
we get lost in the big numbers, the millions. I want to ask 
about one case. This is an international case that you were 
involved in at your organization. A Russian pedophile, 
Alexander--how do you pronounce it?
    Ms. Burkhalter. Trofimov.
    Senator Boxer. Trofimov. He was arrested in Cambodia in 
2007 for buying sex from 17 very young girls and originally 
sentenced to about 15 years in prison. But he was pardoned by 
the Cambodian Government in 2011 and released after serving a 
fraction of his sentence. And I joined a number of colleagues 
in expressing outrage, particularly since Cambodia has received 
significant antihuman trafficking assistance from our Nation.
    Fortunately, the Cambodian Government ultimately relented, 
rearresting Mr. Trofimov, and extraditing him to Russia. But 
this never should have happened. At the time of his rearrest, 
he was living with a 12-year-old girl. Those were the reports 
that we got.
    Why do you think we saw the release of Mr. Trofimov by the 
Cambodian Government?
    Ms. Burkhalter. Thanks for bringing it up and thank you for 
helping us with it--as did Mr. Rubio and others--I am really 
grateful.
    That case was our case. IJM investigated Alexander 
Trofimov. He did not pay young girls for sex. He abducted them 
and he did have at least 17 young victims that IJM discovered 
and, working with local police, got the girls to safety and 
into aftercare, and arrested Mr. Trofimov. We helped represent 
the girls at trial. We have a Cambodian lawyer that is a member 
of the bar, and he told me, Holly, when you were in that 
courtroom--and this is not a courtroom like this room. It is a 
small room and the windows are open and it is full of people 
and there are benches. And he said half the benches in the 
courtroom were filled with the victims, the little girls, who 
Trofimov had hideously, sadistically abused. He was quite a 
monster. And I am sorry to say that in public, but it is the 
truth.
    It was interesting because at the time the Russian 
Government had warrants pending against Alexander Trofimov for 
raping girls as young as nine in Russia. But he went to 
Cambodia thinking that with his many millions, he could do what 
he wanted.
    It was actually a great testimony to the Cambodian 
Government in spite of the millions of dollars that Alexander 
Trofimov had invested in the country in an entertainment center 
of some kind on Snake Island, that the judge, even though there 
was a lot of money flashing around, did the right thing. They 
sentenced Alexander Trofimov to 7 or 8 years.
    And then he was pardoned and released. And I think that 
that is simply a story of a government that is in transition 
where there are tendencies to go both ways. There are 
modernizing and reforming tendencies. We are working with them 
and they are excellent. The head of the antitrafficking force 
is superb. He has a very good group of people who are trying 
their hardest. And then you have other factors in that country 
and other members of law enforcement and other political actors 
who are not on the up and up. And I imagine that money had a 
big part to do with it.
    The really great part about this story is there are 
Cambodians of good will to support. The United States 
Government, which started out with a rather modest response, 
was a little disappointing. I was wanting more of a shouting 
from the rooftop sort of response on this. But then, along came 
six good Senators who urged the administration to really speak 
out and demand that the Cambodians rearrest Trofimov and 
extradite him to Russia. It was in a way to try to support the 
people in Cambodia and the Cambodian Government that were 
asking for this. And that is exactly what happened. They 
changed their position from the December release until the 
rearrest which I believe happened just last month, and he will 
now be prosecuted in Russia for crimes against Russian kids.
    I think this goes to show that in some, not all, countries, 
what the United States cares about becomes a matter of 
importance, and then that helps develop--not our standards but 
international standards and Cambodian law standards and help 
those who want to do the right thing. The United States is 
capable of doing so with the good, strong push from the U.S. 
Senate and the administration.
    Thanks for asking.
    The Chairman. Thank you, Senator Boxer.
    Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman, for 
conducting this hearing, and let me thank our witnesses for 
their testimony.
    I particularly want to thank Minh, Monica, and Jamm for 
being here. We hear about numbers and the statistics and they 
are shocking to us, and then we move on to the next subject. 
But when we see the individual that is affected by it, it does 
motivate us to action. So I just really want to underscore how 
important it is for victims to come forward and to tell their 
stories.
    In my capacity on the Helsinki Commission, I have had a 
chance to visit the victims. I have been to rescue centers in 
Europe and talked one on one with victims of trafficking. And 
you hear their stories, which are in many cases kind of 
similar. Usually young women in a country where there is little 
opportunity read an advertisement about an opportunity in 
another country for legitimate employment, by the way, and a 
legitimate future. They basically have to mortgage themselves 
in order to get there. Once they get to the country, they are 
abused. They have no papers. And you have the complicity of the 
local law enforcement. So the person is trapped and many are 
unable to escape that.
    So I really do applaud the efforts that you all are making. 
We have made progress. Make no mistake about it, but we have a 
lot further that we need to go to end this modern-day slavery.
    Ms. Burkhalter, I just want you to know in naming and 
shaming, we are taking action in this Congress. The bipartisan 
Magnitsky bill has been approved by this committee, will be 
approved by the Senate Finance Committee later this week, which 
says to human rights violators that we are going to name you 
and shame you and take action if the country in which you live 
fails to do that. We do not want you living with impunity when 
you have done these horrible things. So we are taking action.
    I want to get to the point that you raised, though, about 
elevating the Trafficking in Person Bureau and how the TIP 
reports currently operate. First, I applaud Secretary Clinton 
for including the United States in the TIP reports. We now get 
a status as to progress within our own country because I think 
many of us thought America was immune from this form of modern-
day slavery and that if it existed, maybe it was on the fringes 
of a few people coming in from other countries that were being 
abused. But as has been pointed out by the testimony today, it 
is a problem in our own country that needs to be addressed.
    My question to you is, could you just talk a little bit 
more how you elevate the current capacity that we have within 
the State Department dealing with trafficking and particularly 
how--I would invite any one of you to respond to that--how do 
we use that type of information? And you are right. What tier 
you are on is important to a country, and when they come into 
our offices--and I would encourage Members to take up your 
recommendation as we meet with nominees for ambassadors or we 
meet with foreign dignitaries--to have that TIP report in our 
possession and to challenge the country that you are either 
going to represent the United States or they are represented in 
our office to take steps to improve their records. And we know 
exactly what they need to do. The TIP report is pretty specific 
as to why they are on a certain tier.
    But how do we improve our capacity here, and how do we use 
that, our international interests that the United States has 
been a leader? In the OSCE, we have established high 
priorities. Countries are taking note of it. But how do we 
elevate that? And the comment you made that it is not on par 
with other commitments we have made in other bureaus in the 
State Department. Could you be more specific?
    Ms. Burkhalter. Well, I think it should be a bureau. I 
mean, it has been an office. It is a good office. It is an 
excellent office. But there are really important implications 
about it not being a bureau. For one thing, Foreign Service 
officers who want to move in their career and do well and 
thrive, when they come to an office, it does not have the 
prestige as going to a bureau. They are not on the same sort of 
promotion track. It is not to say that the office is not 
getting excellent staff, but it is not a place where Foreign 
Service officers would automatically want to go, ``you know, 
like gee, it is a career builder to go work on these issues 
because it is an office.'' No, people want to go to the 
bureaus. I am not a Foreign Service officer and I have never 
worked inside the executive branch, but this is my 
understanding.
    Second of all, when you do not have someone on the level of 
an assistant secretary to go into a tough meeting where the 
issues are going to be on the table and you have got any number 
of proper, competing important U.S. concerns, and then you have 
another concern which is trafficking, those interlocutors are 
not playing on the same field because you have an assistant 
secretary versus a coordinator of an office. It would not 
matter to me. I think the coordinator is quite wonderful. But 
it matters a lot to people in the Career Foreign Service. That 
is another problem, and it shows. It really tells.
    So I think it should just be a bureau. We have many 
bureaus. The Secretary of State created several new bureaus 
unilaterally relating to conflict and reconstruction at the end 
of last year. I think that was great. I think she should have 
created the Trafficking in Persons Bureau or End Modern-Day 
Slavery. I think it would just be great.
    Senator Cardin. Mr. Abramowitz, I will let you respond, but 
if you could also tell us how you think we could better 
coordinate our focus internationally on rooting out trafficking 
but use that also to advance our actions here in America.
    Mr. Abramowitz. Thank you, Senator Cardin. Just, yes, very 
briefly. I also think there is an issue of resources in the 
JTIP Office. There has been cuts in the amount of money that 
has been available to them to do their own programming. I think 
one of the things that has stood them well in their efforts is 
that when they say, look, country X has a challenge here, but 
we can do something about it, we have grant money that we can 
do to try to help them with the recommendations that you cited. 
And that has been a very powerful lever for them to work 
collaboratively at times both with the country, as in the 
Philippines case, but also with the regional bureaus to try to 
move these issues forward. So that is one point.
    Second, I think that we have a very profound moment here on 
your second question, which is the USAID has just put out their 
countertrafficking in persons policy that is trying to look at 
how to mainstream this issue within their development work so 
that when they are looking at the awareness, education programs 
more generally, microcredit, agriculture, how it is that they 
can start looking at this in an integrated way. And I discussed 
that in my testimony in terms of some of the things we have 
learned.
    I think one of the key issues here is that USAID, who has 
been working in this area for quite some time--this is not a 
new program for them, but they are really trying to put more 
emphasis on it--is to look at what we have learned elsewhere. 
For example, World Vision is implementing a program that the 
Department of Labor has funded, the International Labor 
Assistance Bureau, or ILAB, and they have come up with quite a 
bit of learning on how to do some of these integrated 
approaches. So one of the things we need to do is encourage our 
own agencies who are working on these issues to learn from each 
other so as they go forward, they use the best practices.
    Thank you.
    Senator Cardin. I thank you all.
    And Ms. Pinkett Smith already commented about the need for 
more resources, and that I think is across the board, not just 
in the TIP Bureau but also as it relates to victims so that 
they have confidence that they can come forward and know that 
they will have the support that they need.
    Mr. Chairman, I thank you very much.
    The Chairman. Thank you, Senator Cardin.
    Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman, and 
thank you for this hearing.
    It was a pleasure for me to bump into and meet Mr. Smith 
and his daughter, Willow, and his lovely wife this morning, and 
I am glad to be with you here. And I thank all of you for being 
part of this.
    I am chairing the Senate Judiciary Subcommittee on the 
Constitution and Human Rights, and we have had two hearings on 
human trafficking. The more I get into this issue, the more I 
learn how many different facets there are of exploitation of 
women, children, even exploitation of men. It is happening not 
just around the world, but right here at home. There are 
aspects of it that are frightening. To think that there is a 
form of diplomatic slavery, which has been uncovered by the 
Washington Post, where servants are brought from foreign 
countries working here in this Capital City enslaved, literally 
enslaved right here within a stone's throw of the U.S. Capitol, 
that we are dealing with the reality of the fact that we carry 
around in our pockets these cell phones and many of them 
contain conflict minerals which are being mined in the 
Democratic Republic of Congo and other places by slave labor 
and we have passed legislation still waiting for the SEC to 
implement it to try to make corporations be more responsible 
and more accountable.
    What we did in the committee as well is consider this whole 
aspect of accountability. The law was written so that if you 
did not commit the crime of trafficking in the United States, 
you could not be prosecuted in the United States. We became a 
safe haven. Well, that has changed. We passed a new law and it 
gives the authority to prosecutors in this country to hold 
human traffickers accountable even if their actions were 
overseas. We are not going to be a safe haven in this 
circumstance. And I am glad that that passed.
    But there are a couple aspects of this that I still think 
need to be addressed. One of them is what I call legal slavery 
in foreign countries, child marriage, literally that a 12-year-
old girl in Niger--I think we have a poster here that came 
recently from the Washington Post--a 12-year-old girl in Niger 
married off and practically died in child birth at age 14. 
Twice--Mr. Chairman, I thank you for this--we have passed in 
this committee resolutions in the previous Congress and this 
one condemning child marriage and this exploitation of children 
in other countries. And twice it has died in the U.S. House of 
Representatives. Want an assignment? Call them. Ask them why 
they will not take this up. It has passed on a bipartisan basis 
here. We need to make sure that it becomes kind of a standard 
principle of our Government that we are going to protect 
children and protect, in this case, young girls from this form 
of exploitation.
    And the other aspect of it is--and I agree with Senator 
Rubio and Senator Kerry and others--let us look at ourselves 
too. Nicholas Kristof is a friend and inspiring writer for the 
New York Times and he has taken up this cause not just in 
foreign lands but here in the United States. He takes a look at 
the Web sites in America that are legally--right now legally--
really leading to prostitution but also exploitation of 
children. He named one of them here, backpage.com--I hate to 
give any publicity but only in a negative sense I am giving 
that publicity--that is, in fact, financed by some of the major 
investment banks on Wall Street. And 19 of us joined in a 
letter protesting their trafficking not just of prostitution 
but of children. And Kristof came up with chapter and verse.
    My suggestion, as I step back and look at this, is thank 
you for drawing our attention to it, but you have given us a 
big assignment. Ms. Pinkett Smith, thank you for bringing in 
these brave, young women and tell their story. But we have a 
big assignment if the United States wants to establish a 
standard and live by it and then enforce it in our foreign 
policy around the world.
    So I would like to just ask at this point the aspect of 
child marriage, the aspect of using the Internet for this 
exploitation. Ms. Pinkett Smith, do you have any thoughts on 
those two issues?
    Ms. Pinkett Smith. Well, my thoughts are, I am in complete 
agreement that I need to write a few letters myself in support 
of being against child marriage. And so now that I am thinking, 
I am like that is something that we probably need to figure out 
as a movement on dontsellbodies.org for our young people to get 
involved with that for sure. And I will look to my team to get 
more information on that definitely. But I am in complete 
support of that idea. Absolutely.
    Senator Durbin. Ms. Burkhalter, you have testified before 
our subcommittee. Thank you for doing that. And we have made 
progress. I think we have. We have a long, long way to go. And 
I would like to ask you, as you look at this on the child 
marriage aspect or on the use of the Internet even in the 
United States for these purposes, where you think we need to 
go.
    Ms. Burkhalter. Internet issues are definitely not my 
expertise, so I will not waste your time, though I do know that 
there is some very good work being done by the DNA Foundation 
and by the Center for Missing and Exploited Children. There was 
a recent meeting in California. A number of these groups got 
together. And I will work with your staff and get those names 
and some of that information about what they are doing to you 
after this hearing, sir.
    I would love to see the child marriage bill pass. I had not 
realized it had not.
    Senator Durbin. Twice.
    Ms. Burkhalter. And I do think that giving governments and 
communities tools to help deal with this, you need both norm 
change and you also need alternatives for girls as well as law 
enforcement. It is not legal in almost all of the countries. 
And so sort of a combination of approaches are the way to go.
    But just as female genital cutting used to be the norm, it 
is now changing. Child marriage can change too. I really am 
happy that people have made it an issue. I know there is a huge 
head of steam behind it in the NGO movement. But seeing it both 
as a law enforcement and a development and a cultural norm 
issue and finding ways to help vulnerable countries address it 
on all three fronts is the way to go.
    Senator Durbin. Thank you. I will just close by saying that 
this exploitation takes so many forms, the sexual bondage which 
we have heard of and is just ghastly, the debt bondage which is 
also a close parallel, the forced labor issue, and other 
aspects which were brought out in some of the Helsinki 
Commission reports, I think really is a call to arms for all of 
us to live these standards in America and then promote them 
around the world.
    Mr. Abramowitz. Senator Durbin, if I may just briefly. I 
would just call your attention to a new U.S. global strategy on 
children in adversity that the administration is working on. I 
do not know very much about this. I have not been tracking it, 
but some of our partners have. And it seems to try to put 
exploitation in the widest possible frame. So I think it would 
be useful to take a look at that as that comes out and see 
whether child marriage is something that is also a priority 
there.
    Senator Durbin. Thank you.
    The Chairman. Thank you, Senator Durbin.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman, and thank you for 
holding this hearing and for all the witnesses. There are 
people who have been speaking to you today, as you know, who 
have worked in this area for a very long time.
    I have been very concerned about an issue that I do not 
think has been discussed yet, and I would like to raise it. Ms. 
Pinkett Smith, your testimony today illuminates a big part of 
this, and that is the notion that we need to be maintaining the 
objectives and the standards of the existing legislation. But, 
at the same time, I think we need to work harder to eliminate 
some confusion and even resentment that exists in a number of 
the countries where these TIP reports have been creating some 
feelings that they have not been measured fairly.
    The chairman mentioned in his opening remarks the four P's. 
And certainly when we talk about prevention and prosecution and 
then try to figure out how we can develop and maintain 
partnerships with some of these countries, I think we really 
need to work here in the Congress on having a clear, objective 
methodology that everyone can understand around the world.
    Right now, the TIP reports that we are talking about--these 
annual rankings are actually rankings of countries against 
themselves year by year. For instance, we started hearing about 
this in East Asia where I have spent a lot of time. I am the 
chairman of that subcommittee on the East Asian and Pacific. We 
were hearing about this not only from the governments, but also 
from our embassies. These are people who are dedicated to 
solving these problems and these are not secondary issues over 
there.
    For instance, in 2010, we saw that Nigeria was listed as a 
Tier 1 on the TIP report, Japan was a Tier 2, Singapore was a 
Tier 2 Watch List because they were being rated against 
themselves year by year rather than on some sort of an 
international standard. And first, I think we can all agree 
that different cultures around the world, different 
governmental systems have different approaches, in prevention 
versus prosecution for instance, that may not fit into the 
matrix that we have been using.
    If you take the same year 2010, and look at Transparency 
International's Corruption Perception Index, we see that 
Singapore was tied for No. 1 as the least corrupt country in 
the world with Denmark and New Zealand in terms of perceptions. 
Japan, which was a Tier 2 Watch List, was given a 7.8, ranked 
17. The United States was ranked 22nd.
    We have been trying to encourage a formula where you could 
have countries ranked on an international scale rather than a 
year-by-year scale against themselves or perhaps maybe two 
scales to give these countries a way to deal with the ratings 
that the United States are giving them and to be able to 
explain them to their own people and internationally.
    As this process was moving forward, the Ministry of Foreign 
Affairs in Singapore issued a statement, and this goes 
directly, Ms. Pinkett Smith, to your testimony here. They said 
``We note that the United States has again unabashedly awarded 
itself a Tier 1 ranking. Yet, the New York Times observed that 
teenage girls coerced into prostitution in the United States 
are treated not as trafficking victims but as miscreants who 
are arrested and prosecuted instead of protected. This is 
directly opposite to Singapore's approach. The United States 
also suffers from serious problems with illegal immigrants, 
many of whom are trafficked by well-organized criminal gangs 
which seem to operate with impunity. On any objective criteria, 
the United States has a more serious trafficking-in-persons 
problem compared with Singapore.''
    Now, I am not saying I agree with this 100 percent, but you 
can get an idea of the resentments that exist in cultures that 
are well developed and governments that are well run.
    And so my question really is how do we reduce this 
resentment and still maintain the objectives and the standards 
of our legislation?
    Ms. Pinkett Smith. I personally think that we have to take 
trafficking as seriously on our own soil as we do in 
approaching other countries as far as how other countries are 
handling their trafficking matters. The chairman and I were 
talking about this a little earlier. Just as far as 
prosecution, we really have to hold accountable those people 
who are trafficking on our soil. We have to really hold up the 
standards of prosecuting those criminals. And so I think that 
would definitely make a big difference in how we are looked 
upon in that way.
    Senator Webb. Thank you.
    Mr. Abramowitz, what would your thoughts be in terms of 
trying to create an international standard?
    Mr. Abramowitz. Well, a couple of pieces. I think that as 
Ms. Burkhalter was discussing earlier, I think some confusion 
with respect to how countries respond to some of the rating is 
because of some lack of cohesion within the State Department as 
there is a discussion of what the exact standards mean, there 
is sometimes a different view in the field versus what is 
happening at headquarters. And I think one of the things that 
JTIP and the regional bureaus together have been addressing is 
trying to figure out how to create a more cohesive messaging 
approach.
    So as you know, Senator--and I want to say that we really 
appreciate your strong interest in this issue and following up 
on these issues--there has been an effort to try to have 
conversations with regional officers in the field so that there 
can be greater alignment within the Department about how they 
talk about these issues and what is necessary.
    I think that there is a challenge with respect to the 
system because there is some relativity based in the law. For 
example, on the issue of resources, there is a question when 
the State Department is looking to evaluate where a country 
goes, they fairly, I believe, look at the resources that the 
country has to devote to the particular problem. So if a 
country does not have very many resources but is really doing 
quite a bit, that is, I think, seen as an important step by 
that country even though a country that has more and is in a 
better position to do some things apparently is doing less. So 
there is some of that kind of relative approaches that are 
built into the law in a way that is fair.
    I would say that one point that I think is important to 
mention, as Senator Cardin was earlier, is that while there are 
some of these challenges, I think that countries know what they 
need to do in order to improve their standing. Every year, I 
think starting about 5 years ago, there were recommendations 
that were instilled in the report itself saying this is what a 
country has to do in order to perform better. And I think that 
even if there is some discontinuity and they point to different 
countries, it is fairly clear from the State Department as to 
what they need to actually----
    Senator Webb. I agree. Well, let me ask Ms. Burkhalter 
because I am over my clock here. But, would you not think there 
would be a good argument for, at a minimum, two different 
standards? Something like a Transparency International standard 
where a country like Singapore or Japan, which has organized 
governmental systems, can see where we are ranking them on a 
scale rather than simply against themselves?
    Ms. Burkhalter. Sir, I have had the pleasure of talking 
with your excellent staff, Marta and her colleagues, a number 
of times, and so I feel like I am pretty familiar with the 
issue. I have wrestled around with it for many months because 
of the genuine effort to make our antitrafficking policies the 
most successful, that animates the issue, is well worth our 
support and consideration. I think some of the issues you 
raised would take hours and a couple beers to really do justice 
to.
    But I would say----
    The Chairman. We are for that. We are adjourned.
    [Laughter.]
    Ms. Burkhalter. I guess we are done.
    Senator Webb. It is all about the beer.
    Ms. Burkhalter. I think maybe just on behalf of my 
organization, which is a Christian human rights group, you may 
just strike that last sentence from the record.
    But I would say, not meaning to be argumentative and 
appreciating where you are coming from, particularly when you 
refer to the Transparency International numerical system--I 
would say in defense of the current system, which I think is a 
good one, it is based on an international system. It is based 
on the Palermo Protocol and it is an international standard 
that governments are bound by.
    Now, is each rendition and each tier ranking perfect? No, 
because we already know that there are political considerations 
that come in. I think it should be done as the clearest 
possible articulation of how a country is doing on its own 
trafficking problem. My problem with ranking countries vis-a-
vis others is that it is no help to a trafficking victim in 
Singapore for its country to be ranked ahead of the Congo. It 
is no help to a trafficking victim in Nigeria if their country 
gets on Tier 1 but neighboring----
    Senator Webb. Well, if I may, because I know the chairman 
wants to shut this down. I have actually held a hearing on this 
issue, and I am not trying to cut you off. I appreciate very 
much the work that all of you have done on this.
    But you could make that same argument about ratings on 
media openness and these sorts of things. You could rate a 
country against itself a year ago and have one rating, but if 
you rated media openness among all countries, it would be 
something completely different.
    I am committed to trying to make this policy work, at the 
same time to reduce the frictions that are causing it 
problems--particularly in these more advanced cultures like the 
Japanese and the Singaporean, and to a certain extent, 
Thailand.
    I do not mean to cut you off. If you want to say something 
else, I am very----
    Ms. Burkhalter. Well, I have a meeting with Marta in a 
couple of days, so we will have time to talk about this.
    Senator Webb. All of you, thank you for your testimony 
today and for your work on this issue.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Webb. I know you 
are trying to find a way to deal with a problem, and I know 
there is some resistance to it.
    Is it fair to say that the four-tier system is kind of only 
just now beginning to take hold and that people are beginning 
to understand the brand, so to speak? Is that part of the 
tension here or not, Ms. Burkhalter?
    Ms. Burkhalter. From our experience in the countries where 
we work--and we deal very closely with the governments. It is 
not the universe. We are doing antitrafficking work in four 
countries. They have a clear understanding of the tiers and 
they have a clear understanding particularly when the embassies 
are clear about it and are working with them on a regular 
basis. They know what they are supposed to do. Sometimes there 
are things that they need to do that they do not want to do and 
sometimes they want help with things they need to do. So if 
there is a lack of clarity, it is probably on the U.S. side and 
that we can fix. If there is a lack of clarity in the field, 
then having the U.S. Embassy team up with our TIP experts in 
making sure that everybody is clear about the things that will 
help a country really end its own trafficking problem, then 
that is the system we need.
    The Chairman. I gather that the 17 countries got a failing 
report were Tier 3 and 42 were near the failing level. That is 
Tier 3 versus Tier 2 Watch List. Is the distinction clear 
between those, do you feel, sufficiently?
    Ms. Burkhalter. Yes, I think it is clear.
    The Chairman. What makes it clear?
    Ms. Burkhalter. As David has testified, there is a broad 
range in the crime and there is a number of things that need to 
be done. And the things to solve slavery in our time cannot all 
be done overnight. It is very hard to point to one proven 
formula. There are things that clearly governments are 
responsible to do: protect victims, prevent the crime, deter 
the crime, put the bad guys in jail, et cetera. And to the best 
of their ability, our TIP officers and experts are trying to 
monitor that. They ask governments for data. Sometimes they get 
it; sometimes they do not. But those are good measurements of a 
government's political will to end this crime of modern-day 
slavery.
    And I think three categories are not enough. ``You are 
making it. You are doing well. You are not making it, but you 
are trying or you are flunking.'' I think Congress was smart to 
create a fourth tier, and frankly I think they ought to just 
keep the Tier 2 Watch between Tier 2 and Tier 3.
    Am I answering your question? No. It seems not.
    The Chairman. No. Well, you are. But what troubles me is 
that, for instance, the quote from the Government of Singapore. 
I mean, there is some legitimacy to the notion. You, yourselves 
here, have articulated it that a lot of departments look at 
some people who are brought in and they do not see a victim of 
a conspiracy or slavery or trafficking or whatever. They just 
see somebody who was on the street, throw them in the clinker, 
you know, do what they do, and then they are back in the hands 
of their pimp and they are back out on the street before long.
    And so how we look at this attitudinally is pretty critical 
in terms of our own bona fides, which is why I commented 
earlier that I think we need to do a much better job of 
coordinating all law enforcement initiatives with respect to 
this and putting them into kind of a coordinated effort, if you 
will.
    Mr. Abramowitz. Well, Senator Kerry, if I may make a couple 
of points. First of all, I think that it is also a question of 
the state that you are looking at. I understand the urge to 
have one objective standard. But if you look at some of our 
evaluations of India, for example, which the rating is always 
controversial because of the large number of debt bondage that 
is in India, you often hear from those who look at these issues 
say, well, you know, there is a Federal system there. Many of 
these responsibilities are with the individual smaller six 
state units. And some of them are doing well and some are not, 
but we should not just throw out the baby with the bath water. 
A similar issue exists here.
    I think there is a clear line in terms of is the state 
really showing a commitment, taking affirmative steps that 
differentiates Tier 2 Watch List with Tier 3.
    I think something that has come up in our conversations 
with Senator Webb's office is a couple of other elements, 
including the automatic downgrade provision that is going to 
force countries from Tier 2 Watch List down to Tier 3 starting 
really next year. And that is a provision that has done a lot 
of good, but it also may lead to very difficult conversations 
over the course of the coming year, and it is something I think 
we do need to take a look at.
    The Chairman. Well, I think what we need to do is this. I 
think Senator Webb's reduction to effectively two tiers from 
the four that we have today--I am not in favor of moving in 
that direction. But I do think we can improve the metrics, if 
you will, by which we are making our own judgments so that 
people have confidence in it. Hopefully, you could deal with 
some of the diplomatic unrest that occurs as a result because 
people have a clarity as to how we are approaching it. I think 
there may be some ways to improve on that. You might want to 
think about that as you meet with Senator Webb. You are shaking 
your head.
    Ms. Burkhalter. Only, sir, because I have just been in the 
human rights field so long and I have never once in my life 
experienced that a foreign government enjoys being criticized 
for their human rights record. They just do not.
    The Chairman. They would enjoy it a lot more if they had 
confidence that the country criticizing them had done due 
diligence in its own efforts.
    Ms. Burkhalter. Well, I think we certainly can do due 
diligence here at home.
    The Chairman. That is what I am talking about.
    Ms. Burkhalter. But I think what Mr. Webb is talking about 
is the--he is talking about changing the system by which we 
rank them, and I disagree with that.
    The Chairman. And I am not and I just predicated my 
comments by saying I am not talking about doing that. But I am 
talking about establishing our own bona fides----
    Ms. Burkhalter. I agree with that.
    The Chairman [continuing]. As much as we can, and I think 
that would help enormously to address some of Senator Webb's 
concerns.
    Ms. Burkhalter. Well, that I do not disagree with.
    But I would say that both Singapore and Japan have a long 
way to go, and whether they are developed countries or not, 
they are not doing well on trafficking and slavery. And that is 
what they are being ranked on in the TIP report, and they are 
never going to be happy with us until they clean up their act.
    The Chairman. Mr. Abramowitz, could you say a little more 
about the brokers and in what industries these brokers tend to 
operate--we find them and what are the key protections that are 
needed?
    Mr. Abramowitz. Thank you, Mr. Chairman. This is a very 
important issue. I know Senator Rubio is very familiar with 
this issue as well.
    I think that the problem here is that foreign labor brokers 
are working to supply labor to a huge number of industries. We 
have had the cases of the Indian welders in construction. That 
was a case that was in this country in the gulf coast. We have 
seen a number of recent articles come out in the fishing 
industry. I do not know if you have seen Ben Skinner's article 
that came out earlier this year about the New Zealand fishing 
industry and some of the terrible trafficking that has been 
going on there and the horrible abuses on these fishing boats 
that are sometimes at sea for long periods of time and the 
workers are forced to work 30 hours in a row and 40 hours in 2 
days. It is really horrific.
    And then you have got a number of other agricultural 
settings where this is occurring. For example, in palm oil, you 
see that there are plantations where there is a significant 
amount of labor that is provided that is needed and then the 
brokers are trying to deliver that supply to these plantations 
and it is a major problem.
    In terms of protections, I think that the standards that we 
are looking at are, first of all, being very, very clear with 
the workers on the transparency of what is actually going to 
happen, what they are going to do. One of the reasons the 
government contracting bill has come up is because there were 
these issues in Iraq where we had labor recruiters who were 
recruiting labor to do work inside Iraq and their countries 
actually prohibited them from going to Iraq. And so when they 
got visas and exit permits to leave, it was all about how they 
were going to the gulf to do construction projects in the gulf 
countries. Suddenly they were in Iraq and they were outside any 
protection because their home embassy did not have a particular 
mission there.
    The Chairman. So where could the most effective work be 
done on this? In the source country or in the destination 
country?
    Mr. Abramowitz. My personal view is you need to do both. 
There are these very interesting south-to-south partnerships 
that are developing that are so-called corridor type of 
programs where you have NGOs in the source country who are 
trying to educate, you know, talking about they should not be 
taking fees, which is the other big issue is that should not be 
having fees that will get them in debt and then require their 
family to pay these large fees off if they end up leaving their 
employment. But then you have also someone in the destination 
country that can follow up with them, ensure that they are 
getting the protections that they need. And it is working from 
both ends that is really going to be effective in this area.
    The Chairman. No doubt we could do a lot in our diplomacy 
to advance that.
    Mr. Abramowitz. Well, it is one of the reasons that a 
number of organizations have been pressing for increased 
protections here in the United States on foreign labor 
recruiters not because we have a huge wealth of terrible 
foreign labor recruiters--we do have our problems--but because 
we need to show leadership in this area. Just as you were 
indicating, how can we complain and say you need to have a very 
integrated foreign labor recruiter system if we do not have one 
ourselves? So it goes exactly to the issue that you were just 
building on a few minutes ago.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you.
    I just want to take the opportunity that we are having this 
hearing here today since one of the strategies we have 
discussed today is naming and shaming people or organizations 
that facilitate trafficking. And there is an issue I have been 
involved in along with 18 other colleagues of mine and others 
who I think have joined since then, and it regards Village 
Voice Media, and I wanted to take a moment to talk to you about 
that.
    As you know, the classified Web site, backpage.com, is the 
leading U.S. Web site for prostitution advertising. It is 
estimated they make about $24 million a year off of these ads. 
Some of those ads include a pimp who advertises services of a 
14-year-old girl in Atlanta. He kept her in line by beatings, 
threatening her with a knife, and shocking her with a taser. 
Another of these advertisements was a Minnesota man who was 
charged later with eight counts of child prostitution for 
advertising two girls on backpage.com.
    In fact, 51 attorneys general have asked Village Voice to 
take down adult services ads as a result of this. In fact, the 
National Association of Attorneys General found more than 50 
instances of charges filed against people who trafficked or 
tried to traffic minors on backpage.com. And just 2 months ago, 
19 colleagues on a bipartisan basis here in the U.S. Senate 
signed a letter asking them to close this down and a subsequent 
letter to other advertisers on Village Voice asking them to 
remove their advertisement because of their unwillingness to 
stop this kind of advertising.
    I know many of you have been involved in this and other 
groups. Over 90,000 people--maybe it is now 100,000--have 
signed a petition asking them to stop these advertisements. The 
bottom line is that we know that on the leading advertiser in 
this country of adult services, children, 14 years of age and 
younger, 15-year-old girls, are being advertised and their 
services are being advertised.
    And I wanted to utilize this forum here today to call 
attention to that. I know many in the audience are aware of it. 
It is grotesque. It is unacceptable. It is disgusting. There is 
no first amendment protection for child pornography and child 
trafficking and prostitution. And I hope they will reconsider 
the decisions they have made, and if they do not, I think all 
of us here today and those interested in this issue have a 
continuing obligation to shame them into doing the right thing.
    So I want to thank you, Mr. Chairman, for the opportunity.
    The Chairman. Well, thank you, Senator Rubio. I think 
everybody here would agree with you, and I thank you for taking 
that moment to make your statement.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I just want to 
follow up and concur with Ms. Burkhalter's comments in response 
to Senator Webb.
    I can tell you my own experience in dealing with countries 
of Europe and Central Asia that is very clear. They understand 
why they are in a certain ranking on the tiers and they know 
what they need to do in order to improve. I do not think there 
is any misunderstanding.
    But I think perhaps a point that we could reach an 
agreement with Senator Webb is that if you are a country that 
has the resources and you have mature democratic institutions, 
I think more is expected of you and that you should be leading. 
And I think the United States can do a lot more. So I do not 
take comfort that we can sit back and do nothing because we are 
the highest rating under the TIP report. To me, the resources 
America has, its leadership internationally on these issues 
indicate that we should be doing more. And perhaps we can 
figure out a way in which we can make that clearer so that we 
are not trying to say that we have done what needs to be done. 
We have a lot more that needs to be done. And I think that may 
be a point where we could agree with Senator Webb.
    But I think, though, the TIP report is very valuable. It is 
not the only tool available and it should not be the only 
evaluations that are being made. We should be doing a lot more 
in that regard, but I would not want to see us let countries 
off the hook because of trying to politicize the way that these 
TIP ratings are made.
    The second point I would make on law enforcement, if I 
might. Some of the areas that I think have been the most 
effective in dealing with trafficking is when you have law 
enforcement cooperation between the origin country and the 
receiving country and also transit countries, but the way. Let 
us not forget the transit countries. You cannot get from A to B 
without going through a lot of other countries. But when law 
enforcement works together and sets up a strategy, it has been 
much more effective in dealing with it because it is just not a 
problem of one country or another. It really is in multiple 
areas. And I think that is one area that we could perhaps 
improve is the cooperative relationships among the different 
countries in effective law enforcement in stopping these rings.
    By the way, these trafficking centers are usually connected 
with organized crime and they are hugely motivated by greed and 
money, as has been pointed out. And without that type of 
commitment from more than just one country, it is very 
difficult to really root out these networks.
    So, Mr. Chairman, I think this hearing has been extremely 
valuable. I think we should look at some of the suggestions 
that have been made, including elevating the presence within 
the State Department and expecting more from our own country as 
far as dealing with some of the root problems.
    And once again, I particularly want to thank those who have 
experienced firsthand the savage of slavery for being here and 
thank our witnesses for their presentation.
    The Chairman. Senator Cardin, thank you very much. Thanks 
also for your longtime leadership on this. I thank each of the 
Senators who are here. They have all had an interest in this 
for a period of time.
    I do think your comments about the law enforcement effort 
really leap out at me. And I mentioned earlier there is no 
question there is a huge amount of space here for significant 
global law enforcement coordination on this and for some major 
sting operations, some major inside efforts. This can be 
significantly reduced. I mean, we are all still coping with 
gambling and prostitution and other issues in every county in 
America practically. But there is a difference between it 
absolutely ripping at the fabric of life itself in a country 
and in communities versus being a large nuisance and something 
that you kind of put up with and cope with on an ongoing basis. 
But it is not as damaging as this is. And I think we have a 
long way to go to get to that with respect to this issue.
    So it needs focus and we are going to find a way to do 
that. Senator Cardin, I look forward to working with you and 
others in order to try to do that.
    I just have one last question maybe each of you could 
answer, and that is sort of for the average person listening to 
this, for the general public, a lot of people know about this, 
but they feel pretty helpless. They say, well, what do I do 
about that. That is law enforcement or that is the State 
Department or whatever it is. Obviously, Willow felt 
differently and I congratulate you for that, Willow. Is she 
still hiding back there? OK. But I really tip my hat to her 
because she got her mom involved and she has made a difference. 
And I wonder if you each might just take a moment to comment on 
how you think the average person could get more involved and 
make a difference. Let us perhaps end on that note.
    Ms. Burkhalter.
    Ms. Burkhalter. I think they should send you 200,000 
letters--you--from Massachusetts and urge you to do for slavery 
what you did on HIV/AIDS.
    The Chairman. Well, I will save them the mailing and the 
writing. We are going to do that.
    So what else do they do? What else can they do? I am in it.
    Ms. Burkhalter. I actually do think that citizens need to 
tell the people that represent them in Congress and their 
President, whoever that is in the next term, that this is 
something they care about, and the message can just be simple. 
You know, I live in Ames, IA, and I care about modern-day 
slavery and I want our country to lead and end it. And I 
actually think it is why we have gotten as far as we have 
because you gentlemen have enormous political space to operate 
in, and you have the support of the American public. And what 
we do at IJM is try to organize that support and tell you. We 
have lobby days. We have a million postcards and make a total 
nuisance of ourselves. But it is people in 50 States telling 
you please lead, please spend my money, please end slavery at 
home and abroad. That is what we are doing. We are leaving this 
hearing and going right back to what we do, tweet, blog, all 
those things I do not understand, but we are getting the word 
out and giving people things to do.
    Ms. Pinkett Smith. My daughter made a fantastic suggestion 
as far as engaging people to start movements even in your 
communities. I know that in Oakland and recognizing that there 
was a motel that was basically supporting child prostitution 
and neighbors watching young girls being brought in and out of 
hotel rooms and gathering together and eventually with HEAT 
Watch being able to have that motel shut down. So the more that 
we can educate ourselves and being able to recognize what this 
crime looks like, we can in our own communities keep our eyes 
open, be very vocal about what is happening, and do something 
about it.
    Mr. Abramowitz. Just following up on a couple of points. I 
think being aware is a very important issue. The invisibility 
of this crime, as Ms. Pinkett Smith said, is so challenging, 
and if we are going to try to bring out victims, create 
synergies with law enforcement, try to build civil society, 
individual citizens have to help. They have to help identify. I 
think it is fantastic that the national hotline that Polaris 
Project runs has seen a massive increase in the number of both 
crisis calls from victims but also tips they have got. I think 
the figure has gone up something like 340 percent over the last 
4 years. It is very impressive. It is something we really need 
to try to promote.
    Second, of course, supporting resources. We are in a 
difficult budget environment, Mr. Chairman. I do not have to 
tell you that. You know much more about that than I do. And I 
think while maybe 200,000 letters from Massachusetts is not 
necessary, I think thousands of people acting in these areas 
and pressing this across the wide political spectrum is very 
important, and we are trying to build that.
    And third, I think there is something about demanding more 
from companies. This is a very difficult area. Humanity United 
is actually doing some research on public attitudes regarding 
how they view these issues, as I alluded to earlier. But 
individuals need to try to demand more from their companies, 
whether it is the code of conduct that hotels are signing up to 
that ACPAC USA has been promoting for people to say, is your 
hotel signing up to this code of conduct to make sure there is 
no trafficking here because if it is not, then I am not staying 
there. Or even asking about it and showing that there is a 
demand or taking the slavery footprint program that will tell 
you how much you are really involved in slavery and then trying 
to talk about that more.
    I went to Whole Foods the other day and said do you know 
where your shrimp comes from, and do you know that that is a 
problem? And they said, yes, we know that is a problem. We are 
really thinking about what we do. So I think generating that 
kind of energy with the private sector and making people 
understand they care is another aspect of these issues that we 
need to follow up on.
    The Chairman. Well, that is the purpose of this hearing and 
of other hearings. And I really appreciate everybody's 
contribution to that effort.
    I do think when you think about the fact that the three 
survivors who are here today, Minh, Monica, and Jamm, each come 
out of Los Angeles, Oakland, and I think it was San Jose--I 
mean, think about that, folks. A lot of people in local 
communities need to start opening their eyes and asking 
questions and figuring out what they can do with their local 
police departments, with their city councils, their mayors, 
their State representative, the legislature, and other people. 
There has got to be an increased awareness about this and we 
have to think hard about the ways in which we, obviously, can 
try to increase that.
    I want to thank all of you. I want to thank spouses and 
families. I know David Abramowitz's wife is here and children 
also, and we are grateful to you for coming and being part of 
this. And Mr. Smith did come to Washington today. We thank you 
for that.
    [Laughter.]
    And we are grateful to everybody for helping to shed light 
on this.
    Transparency, sunlight go a long way toward holding people 
accountable. That is the purpose of the TIP program, and we are 
going to be very focused on this and I promise you, Ms. 
Burkhalter, work with us. We want to try to put together this 
comprehensive piece that we could introduce and hopefully get 
bipartisan--I am confident we will get bipartisan support for 
it.
    So with that, we thank you for coming and we stand 
adjourned. Thank you.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Two Articles Submitted by David Abramowitz With His Prepared Statement

    Testimony of Neha Misra, Senior Specialist, Migration and Human 
 Trafficking, Solidarity Center Before the Commission on Security and 
  Cooperation in Europe (U.S. Helsinki Commission)--``Slavery without 
   Shackles'': Labor Exploitation and the Trafficking of Vulnerable 
                        Workers around the World

    Thank you to the U.S. Helsinki Commission for the opportunity to 
present the Solidarity Center's view about ``labor trafficking in 
troubled economic times,'' and especially to highlight the 
vulnerability of immigrant workers\1\ to trafficking and forced labor 
within legal structures in the U.S. and around the world.
    My name is Neha Misra. I am the Senior Specialist for Migration and 
Human Trafficking at the Solidarity Center. We are an international NGO 
that promotes and protects worker rights globally, working in over 60 
countries. The Solidarity Center is an allied organization of the 
American Federation of Labor--Congress of Industrial Organizations 
(AFL-CIO), and a member of the Alliance to End Slavery and Trafficking 
(ATEST). Building upon more than 20 years of experience in the areas of 
child labor and immigrant worker exploitation, the Solidarity Center 
raises awareness about the prevalence and underlying causes of 
trafficking for labor exploitation, and strives to unite disparate 
forces to combat the problem. Since 2001, the Solidarity Center has 
implemented more than 20 programs combating human trafficking in 
countries such as Thailand, Indonesia, Nepal, India, Sri Lanka, 
Pakistan, the Philippines, Bahrain, Qatar, Kuwait, Kenya, and the 
Dominican Republic. These programs include initiatives that address 
each of the four ``Ps'' that have become part of the antitrafficking 
paradigm: prevention, protection of victims, prosecution (or as we 
prefer to describe it, ``rule of law''), and partnerships.
      trafficking for labor exploitation in today's global economy
    The Solidarity Center especially appreciates the Helsinki 
Commission's focus in this hearing on trafficking for labor 
exploitation and the focus on ``abusive, unethical, and illegal 
business practices that . . . contribute to human trafficking and 
forced labor.'' As a worker rights organization, the Solidarity Center 
has seen firsthand how violations of worker rights and the lack of 
labor standards and protections for workers increase their 
vulnerability to human trafficking.
    Too often the media and the public see human trafficking only as a 
crime of organized syndicates, of criminal gangs, or underground 
criminals who exploit undocumented immigrant workers. While this is of 
course true in some contexts, we are increasingly seeing trafficking 
for labor exploitation happening in the context of legal structures of 
employment and business--with traffickers who are employers and labor 
recruiters, not gang members.
    Examples abound around the world of human trafficking thriving in 
the context of worker exploitation:

  <bullet> When immigrant workers are forced to pay high fees, often at 
        exorbitant interest rates, to labor recruiters to work in 
        another country, they are vulnerable to debt bondage--one of 
        the most pervasive forms of modern day slavery. This is the 
        case for 400 Thai workers who, according to a U.S. Department 
        of Justice indictment, were allegedly trafficked to the United 
        States by Global Horizons Manpower under the H-2A visa program 
        through false promises of decent work. The Thai workers ``took 
        on crushing debt to pay exorbitant recruiting fees, about 
        $9,500-$21,000. After they arrived in America, according to the 
        indictment, their passports were taken and they were set up in 
        shoddy housing and told that if they complained or fled they 
        would be fired, arrested, or deported.'' \2\ Millions of other 
        workers--including for example, Moldovan migrant agriculture 
        workers in Italy and Vietnamese workers toiling in factories in 
        Malaysia--can tell a similar story.
  <bullet> When buyers pressure suppliers all along supply chains to 
        achieve cutthroat prices for their products, workers are the 
        ones that bear the burden as labor costs are often the first 
        ones to be cut, increasing workers vulnerability to severe 
        forms of labor exploitation, including human trafficking. This 
        is the case for thousands of Burmese migrant workers who have 
        been subject to forced labor and physical, emotional, and 
        sexual intimidation in seafood-processing factories in 
        Thailand, which export to the United States. The factories rely 
        on trafficked workers to stay within the cost structure.
  <bullet> When labor laws and regulations are not implemented, 
        monitored, or enforced--when labor inspection is weak or 
        nonexistent--workers are vulnerable to trafficking for forced 
        labor and other forms of severe labor exploitation. When 
        workers face retaliation for trying to exercise their rights or 
        when workers lack access to avenues to address abuse, workers 
        are vulnerable to human trafficking. This is the case for 
        millions of domestic workers,\3\ agricultural workers, and 
        immigrant workers in the United States and around the world who 
        face extreme conditions of exploitation, including physical and 
        sexual violence, confiscation of passports, illegal 
        confinement, dangerous working conditions, and nonpayment of 
        wages. These workers are often explicitly excluded from the 
        protection of labor laws, even when they are citizens or 
        nationals of a country, and their work is often relegated to 
        the informal economy where there is little labor inspection.

    In 2011, a slave may not be in chains or shackles, but they are no 
freer. Slavery is not simply ownership of one person over another. 
Modern day slavery is much more subtle. Trafficking victims toil in 
factories that produce products that are exported to the United States, 
Europe, and other destinations. Trafficking victims harvest vegetables 
and process food that ends up on our dining room tables. They pick 
crops or mine minerals that are raw materials in the products we buy. 
They make the clothes and shoes we wear. They clean people's homes and 
take care of the young, elderly, and sick. They are enslaved not only 
through physical restraint, but also through coercion, fear, and 
intimidation. In today's global economy, workers can be enslaved by 
threats of deportation, lack of viable alternatives, and especially 
debt.
    While trafficking for labor exploitation has many facets, several 
major trends in our globalized world endanger workers, particularly 
those most at risk and most in need of protection. In developed 
economies like in the United States and Europe, we are seeing an 
increase in cases of trafficked immigrant teachers, nurses, 
construction, and service sector workers--all in these destination 
countries with valid visas, shining a light on the structural failures 
within our economic and employment systems that increase immigrant 
workers' vulnerability to severe forms of labor exploitation. 
Multinational corporations, employers, businesses, labor recruiters and 
others exploit these failures.
              trafficking as an inherent vulnerability in
                   temporary labor migration schemes
    Of particular concern are temporary labor migration schemes--
sometimes referred to as guestworker, sponsorship or circular migration 
programs--that are increasingly being promoted by governments around 
the world to fill demand for cheap labor. In practice, these schemes 
create a legalized system and structure for employers to exploit 
workers, and increase workers' vulnerability to human trafficking and 
other forms of severe labor exploitation. Such programs have been 
plagued by a long history of abuses ranging from labor violations to 
visa fraud, debt bondage, involuntary servitude and trafficking for 
labor exploitation. This includes, among many others, the U.S. H-2 visa 
guestworker program, seasonal agricultural programs in Canada and 
Europe, and the ``kafala'' or sponsorship system in the Gulf 
Cooperation Council (GCC) countries.
    The Alliance to End Slavery and Trafficking or ATEST, of which the 
Solidarity Center is a member, recently described the problem in a 
submission to the U.S. Department of Labor as follows\4\:

          It is by now beyond dispute that temporary ``guestworker'' 
        programs have long worked to the detriment both of the U.S. 
        workers who are bypassed in favor of foreign workers, and for 
        the foreign workers who fall prey to unscrupulous employers and 
        their labor contractors.\5\ Of particular concern to our 
        members, key aspects of the program lead to human rights 
        violations such as debt peonage (or debt bondage), trafficking 
        for labor exploitation and involuntary servitude, all forms of 
        modern-day slavery. Guestworkers' vulnerability is greatly 
        increased by the use of labor recruiters or foreign labor 
        contractors who lure impoverished and desperate foreign workers 
        to jobs within the United States described as plentiful and 
        lucrative. The opportunity to work in the U.S. comes with an 
        intolerably high price tag that includes inflated 
        transportation, visa, border crossing and other costs, and 
        ``recruitment fees.'' Often, workers literally mortgage family 
        properties or take out loans from loan sharks at exorbitant 
        rates in order to meet these obligations. Companies within the 
        United States claim no knowledge of their recruiters' actions 
        and escape legal liability on these grounds. The recruiters 
        themselves often remain beyond the reach of the U.S. legal 
        system.
          Once guestworkers arrive in the United States, the well-paid 
        jobs that have been offered [often] do not materialize. Workers 
        are left without work at all, or without work for the length of 
        time promised them. Favorable terms and conditions of work 
        offered in the home country are replaced by harsh conditions. 
        Job contractors transfer workers, for a price, to other 
        contractors. Workers who are dissatisfied with the jobs face 
        overwhelming subtle and not-so-subtle pressures to acquiesce. 
        Passports and other immigration andidentity documents are 
        confiscated [by employers] to ensure that workers do not run 
        away. Families back home are threatened [by recruiters] with 
        physical violence, as well as family bankruptcy due to loss of 
        their investment in the worker. Workers who dare speak up for 
        their rights face job loss, followed by deportation to their 
        home countries and blacklisting. These factors lead workers to 
        fall into myriad situations that rise to the level of a severe 
        form of human trafficking, most notably coercion through abuse 
        or threatened abuse of the law or legal process.
          As noted in a recent ILO report, these conditions create a 
        program that is ripe for human rights violations. Human 
        trafficking abuses involving H-2B visas have been documented 
        with frequency in recent media.

    While the description above refers to the U.S. temporary 
guestworker program, the same scenario repeats itself around the 
world--for example, in Canada, Europe, the GCC, and around Asia. The 
common element is that these workers are trafficked within legal visa 
systems, fully documented, and that structural flaws within these 
programs allow workers to be trafficked.
    Two other major common themes emerge:
          1. The role of foreign labor recruiters in taking advantage 
        of the lack of labor rights and inherent structural failures in 
        these programs to exploit immigrant workers; and,
          2. The need to provide greater protections to workers and 
        opportunities for them to report abuses and advocate for their 
        own rights.
      the role of labor recruiters in promoting human trafficking
    Foreign labor contractors or recruiters are increasingly relied 
upon by employers, businesses, and multinational corporations to 
facilitate the movement of labor from one country to another. While 
many labor recruiters behave ethically and are engaged in lawful 
conduct, other recruiters are often complicit with or directly involved 
in trafficking of workers. Recruiters often charge exorbitant fees for 
their services, forcing workers into debt bondage, falsifying 
documents, and deceiving workers about their terms and conditions of 
work increasing vulnerability to human trafficking.
    The incidence of known human trafficking cases involving foreign 
labor recruiters is increasing dramatically in the United States. The 
aforementioned Global Horizons case and the Signal workers case are 
just two recent examples. Many U.S.-based service providers state that 
regulating labor recruiters is one of the most important initiatives 
needed to combat human trafficking in the United States--both labor 
recruiters based in the U.S. and abroad. Employers rely on labor 
recruiters who have operations both in the U.S. and in foreign 
countries--as they use a system of subcontracting to find workers. The 
operations of such recruiters need to be regulated on both ends of the 
spectrum.
    Stricter regulation of labor recruiters is needed to protect 
workers entering
the United States from human trafficking and other abuses such as wage 
theft. Stronger legal frameworks will help to prevent unregulated 
actors from conspiring to fraudulently deceive workers about the terms 
and conditions of work.
    To that end, ATEST has made a series of recommendations to include 
regulation of labor recruiters/foreign labor contractors in the 2011 
Reauthorization of the Trafficking Victim Protection Act (TVPRA 2011). 
Similar provisions were passed in the 2008 House of Representatives 
version of the TVPRA. We have learned even more since 2008 about the 
need for greater regulation of foreign labor recruiters. As such, ATEST 
recommends, with the support of a number of worker and immigrant rights 
groups in the United States, the following for inclusion in the 2011 
TVPRA:
    1. Elimination of Fees: No foreign labor contractor, or agent or 
employee of a foreign labor contractor, should be allowed to assess any 
fee (including visa fees, processing fees, transportation fees, legal 
expenses, placement fees, and other costs) to a worker for any foreign 
labor contracting activity. Such costs or fees may be borne by the 
employer, but these fees cannot be passed along to the worker. This is 
one of the most crucial elements to eliminate debt bondage for 
immigrant workers.
    2. Disclosure: Foreign labor contractors and employers must be 
required to fully disclose to the worker in writing in English and in 
the language of the worker being recruited, all of the terms and 
conditions of their work. This includes:

  <bullet> The identity of the employer and the identity of the person 
        conducting the recruiting on behalf of the employer, including 
        any subcontractor or agent involved in such recruiting.
  <bullet> A signed copy of the work contract, including all assurances 
        and terms and conditions of employment, from the prospective 
        employer for whom the worker is being recruited, including the 
        level of compensation to be paid, the place and period of 
        employment, a description of the type and nature of employment 
        activities, any withholdings or deductions from compensation 
        and any penalties for terminating employment.
  <bullet> The type of visa under which the foreign worker is to be 
        employed, the length of time the visa is valid and the terms 
        and conditions under which this visa will be renewed with a 
        clear statement of whether the employer will secure renewal of 
        this visa or if renewal must be obtained by the worker and any 
        expenses associated with securing or renewing the visa.
  <bullet> An itemized list of any costs or expenses to be charged to 
        the worker. Including but not limited to: the costs of housing 
        or accommodation, transportation to 
        and from the worksite, meals, medical examinations, health care 
        or safety equipment costs, and any other costs, expenses or 
        deductions to be charged the worker.
  <bullet> A statement describing the protections afforded the worker 
        by U.S laws and regulations, including protections in the 
        Trafficking Victims Protection Act of 2000 (Division A of the 
        Public Law 106486), as well as relevant information about the 
        procedure for filing a complaint and the telephone numbers for 
        the Department of Labor hotline and the National Human 
        Trafficking Resource Center hotline number.

    3. Registration: A Department of Labor administered process for 
foreign labor contractors to obtain a certificate of registration. 
Employers must be required to use only foreign labor contractors who 
are properly registered under this system.
    4. Enforcement: A Department of Labor established administrative 
process for receiving, investigating, and adjudicating complaints 
against the compliance of either employers or foreign labor 
contractors. Criminal and civil rights of action for workers themselves 
are also key to preventing trafficking.
    5. Accountability: Workers must be protected from retaliation and 
employers must be held accountable for the actions of foreign labor 
contractors that they hire.
 worker rights as a means to prevent trafficking for labor exploitation
    As described earlier, immigrant workers must be included fully in 
the protection of labor laws and have access to mechanisms to exercise 
their rights and report abuses to reduce their vulnerability to 
trafficking. Threats of retaliation, deportation, and visas being tied 
to a particular employer all increase the incidence of trafficking for 
labor exploitation. For this reason, ATEST also recommends a provision 
for the 2011 TVPRA that provide temporary immigration relief to workers 
who are whistleblowers of severe labor exploitation. There have been a 
number of human trafficking cases recently in the United States where 
workers who raised the alarm about severe abuse by employers have 
initially been threatened with deportation as a way to keep them quiet. 
These workers have had to remain in the United States in an 
undocumented status in order to stay in the country to pursue their 
cases against the abusive employers. After many years, these same 
workers have been certified as trafficking victims and receive ``T'' 
visas, but had to struggle for many years without status. Examples of 
this include the Global Horizons case and a group of Indian workers 
known in the media as the Signal Workers. ATEST recommends that a 
provision be included in the TVPRA 2011 to give trafficked workers like 
these access to temporary immigration relief in the United States while 
they pursue claims here, even if they are not initially identified as 
trafficking victims.
                      trafficking in supply chains
    Another major trend in the global economy is the use of 
trafficking, forced labor, and slavery victims all along supply chains. 
It is difficult to quantify the exact number of trafficking victims who 
work in global supply chains but, as those supply chains reach down to 
smaller and smaller suppliers, the chances increase that the labor 
force includes trafficked people.

  <bullet> When employers (buyers and multinational corporations 
        (MNCs)) demand cheap or unrealistic pricing structures, they 
        should not be surprised to find severe labor abuses, including 
        slavery, in their supply chains.
  <bullet> Similarly, when employers contract out or hire unregulated 
        subcontracted suppliers, they should not be surprised to find 
        that they have trafficking victims in their production lines
  <bullet> When employers refuse to enforce or claim that it is too 
        difficult to monitor adherence to core labor standards in their 
        supply chains, they will find forced labor, debt bondage, and 
        other severe forms of labor exploitation there.

    The Solidarity Center believes that the most effective way to 
eliminate forced labor, debt bondage, and other forms of slavery in 
supply chains is by empowering workers to have a voice in their 
workplace, and supporting their right to organize and join unions. We 
believe that governments, MNCs, employers, labor recruiters and others 
must adhere to core labor standards and respect workers' human and 
labor rights in order to affect change in practices all along supply 
chains.
    The existence of MNC codes of conduct have failed to curtail 
trafficking practices in any number of sectors including garment/
textile, agriculture, and seafood processing. There is no easy solution 
to this problem, but we know that a key deterrent is the ability of 
unions and labor rights organizations to shine a light on these 
practices through on-the-ground investigations. We believe it is 
important that the Congress and administration support such monitoring 
efforts, and the efforts of workers to monitor their own workplaces. 
Ultimately, workers and trade unions must be empowered to monitor 
supply chains because history shows that abuses in the
workplace only end when workers have the power to ensure that their 
rights in 
both International Labor Organization (ILO) conventions and national 
laws are respected.
    Governments must also play a major role in eliminating slavery in 
supply chains. Examples abound of governments around the world 
reluctance to hold employers accountable for trafficking in their 
workplaces. Even when trafficking for labor exploitation is addressed, 
the labor recruiter is blamed and not the employer who perpetrates the 
exploitation.
    This lack of political will translates into ridiculously few cases 
of human trafficking for forced labor or other forms of severe labor 
exploitation from being prosecuted around the world. When cases are 
prosecuted, they often result in small fines and no jail time for the 
perpetrators--barely a deterrent for exploitative employers. The U.S. 
Department of Justice is playing an important leadership role globally, 
by prosecuting high-profile cases, such as the Global Horizons case, 
that may educate other governments of trafficking of temporary workers 
and within supply chains. The Office to Monitor and Combat Trafficking 
in Persons (G/TIP) at the State Department also plays an important role 
through its annual Trafficking in Persons Report in highlighting the 
lack of (but need for) prosecutions for forced labor and other forms of 
trafficking for labor exploitation in countries around the world.
    The U.S. Government, however, must do more to ensure that U.S. 
corporations are held accountable for their practices abroad. We must 
increase government scrutiny of imports and exports to ensure goods 
made by slave labor are not allowed in the U.S. marketplace. To this 
end, the State Department needs to put more emphasis on site visits 
overseas to suspect industries. To do this, it must expand the number 
of labor officers and attaches in the field, something that the 
Congress has called for generally but which the Department has yet to 
act upon in any meaningful way.
    In addition, the Department of Homeland Security must review and 
rework the role of Immigration and Customs Enforcement (ICE) in 
overseas inspections. Currently, ICE must notify foreign governments of 
their intent to inspect workplaces that export products to the United 
States. Such notification results in the ``cleansing'' of these 
workplaces to remove any signs of trafficking or forced labor. U.S. law 
does not allow evidence collected by unions or nongovernmental sources 
to be the basis for restricting the importation of products made by 
slave labor. This must be reformed.
                               conclusion
    Secretary of State Hillary Clinton said, in the opening of the 2010 
TIP Report, ``Ending this global scourge is an important policy 
priority for the United States . . . and no one should claim immunity 
from its reach or from the responsibility to confront it.''
    We agree. It is not an oversimplification to say that if we end 
worker exploitation, we can end human trafficking. As the International 
Labor Organization (ILO) has noted, ``Where labor standards are 
rigorously adhered to, workers are well unionized and labor laws are 
monitored and enforced--for all workers, indigenous or migrant--the 
demand for trafficked people and services is likely to be low.''
    Thank you, again, for the opportunity to testify and for your help 
in combating global trafficking and supporting the rights of workers 
everywhere. I welcome your questions.

----------------
End Notes

    \1\ The term ``migrant worker'' is the internationally accepted 
term for a person who migrates for employment, whether temporary, 
seasonal, or permanent. In the United States, in everyday language, 
``migrant worker'' refers to a seasonal or temporary worker, and 
``immigrant worker'' refers to someone who migrates for work on a more 
permanent basis, or who has residency rights. I will use the common 
U.S. term of ``immigrant worker'' in my testimony modifying it slightly 
to refer to any person who leaves his or her country of origin to find 
a job abroad--whether temporary, seasonal or permanent.
    \2\ Editorial, ``Forced Labor,'' September 7, 2010, http://
www.nytimes.com/2010/09/08/opinion/08wed2.html?_r=2.
    \3\ The term ``domestic worker'' refers to a person who provides 
services--such as childcare, cooking, and cleaning--to or within a 
household.
    \4\ ATEST Comments on RIN 1205-AB58, Temporary Non-Agricultural 
Employment of H-2B Aliens in the United States (Employment and Training 
Administration, 20 CFR Part 655 and Wage and Hour Division, 29 CFR Part 
503), May 17, 2011.
    \5\ Southern Poverty Law Center, 2007. ``Close to Slavery: 
Guestworker Programs in the United States,'' http://www.splcenter.org/
pdf/static/SPLCguestworker.pdf; Closed and Criminal Cases Illustrate 
Instances of H-2B Workers Being Targets of Fraud and Abuse, GAO 10-
1053; testimony submitted by members of the Guestworker Alliance for 
Dignity to the House Committee on Oversight and Governmental Reform 
Domestic Policy Subcommittee, ``The H-2B Program and Improving the 
Department of Labor's Enforcement of the Rights of Guestworkers,'' 
April 9, 2009; The Costs of Coercion: Global Report under the Follow Up 
to the ILO Declaration of the Fundamental Principles and Rights at 
Work, International Labor Organization, International Labor Conference, 
98th Sess. 2009 Report I(B), http://www.ilo.org/wcmsp5/groups/public/
_--ed_norm/_--relconf/documents/meetingdocument/wcms_106230.pdf.
                                 ______
                                 
                   Alliance to End Slavery and Trafficking,
                                     Washington, DC, June 13, 2012.
Hon. Daniel K. Inouye,
Chairman, U.S. Senate Committee on Appropriations.
Hon. Thad Cochran,
Vice Chairman, U.S. Senate Committee on Appropriations.
    Dear Chairman Inouye and Vice Chairman Cochran: On behalf of the 
Alliance to End Slavery and Trafficking (ATEST), a national advocacy 
coalition of anti-human trafficking groups, we write to urge you to 
vote NO on any amendments that will deny funding or delay the 
enforcement of the U.S. Department of Labor's (DOL) H-2B prevailing 
wage and comprehensive rules. We understand that such an amendment will 
be offered during the Labor/HHS markup this week, and we urge you to 
vote NO.
    DOL's H-2B prevailing wage and comprehensive rules are critical 
measures necessary to prevent human trafficking in the United States. 
The DOL rules will make important progress towards eliminating the 
history of criminal abuses that continue to plague this program. These 
violations range from labor violations to visa fraud, debt bondage to 
involuntary servitude, and discrimination to trafficking for labor 
exploitation.
    The DOL rules are a crucial piece of the United States fight 
against human trafficking. Specifically, the DOL rules impose common 
sense recruitment requirements so that companies first look to U.S. 
workers to fill seasonal jobs, including those they have recently laid 
off; they outlaw the exorbitant ``recruitment fees'' that have led to 
human trafficking and debt bondage for many foreign guestworkers; they 
require employers to disclose the names of their recruiters and to 
prohibit them from charging fees--a major step in preventing human 
trafficking; and they beef up DOL oversight of employers who use the 
program in order to ensure compliance with the rules.
    From December 2007 through March 2011, the National Human 
Trafficking Resource Center (NHTRC) received 459 calls referencing the 
H-2A or H-2B programs. The majority of calls referenced situations of 
labor exploitation of immigrant workers, including wage and hour 
concerns, unsafe or hazardous working conditions, potential 
discrimination, and forced labor.
    Of particular concern to ATEST members, key aspects of the H-2B 
program lead to human rights violations such as debt bondage and 
trafficking for labor exploitation and involuntary servitude, all forms 
of modern-day slavery. Relying on unscrupulous labor recruiters and 
foreign labor contractors greatly increases guestworkers' 
vulnerability. Labor recruiters and contractors, who operate in a 
climate of impunity, lure impoverished and desperate foreign workers to 
jobs within the United States described as plentiful and lucrative. 
They rely on coercive tactics, charging guestworkers exorbitant illegal 
fees that often force workers to stay in abusive or exploitative 
working conditions under debt bondage.
    Once guestworkers arrive in the United States, the well paid jobs 
that recruiters and labor contractors offered do not materialize. 
Workers are left without work at all, or without work for the length of 
time promised them. Harsh conditions replace the favorable terms and 
conditions of work offered in the home country. Workers who are 
dissatisfied with the jobs face overwhelming pressures to acquiesce:

  <bullet> Job contractors transfer workers, for a price, to other 
        contractors.
  <bullet> Employers confiscate passports and other immigration and 
        identity documents are confiscated to ensure that workers do 
        not run away from exploitative conditions.
  <bullet> Families back home face threats of physical violence, as 
        well as family bankruptcy due to loss of their investment in 
        the worker.
  <bullet> Abuses from the H-2B program further stem from the fact that 
        guestworker visas are tied to a specific employer and thus they 
        may not change jobs even when abused. Workers who dare speak up 
        for their rights face job loss, followed by deportation to 
        their home countries and blacklisting. This fear of deportation 
        or retaliation increases their vulnerability to a whole host of 
        workplace abuses including underpayment of wages, lack of 
        overtime pay, discrimination, document confiscation, 
        restriction of movement, verbal abuse, threats, blacklisting, 
        and unsafe work conditions.

    These exploitative conditions trap workers in myriad situations 
that rise to the level of a severe form of human trafficking, as 
defined by federal law, most notably coercion through abuse or 
threatened abuse of the law or legal process.
    In addition to protecting workers from abuse, these new rules can 
promote change around the world. If the United States is to continue as 
a leader in the fight to end human trafficking and modern-day slavery, 
we need to start with our own government policies. This is why we urge 
your support for the DOL rules, and ask you to vote NO on any 
amendments to deny funding or delay enforcement of the H-2B prevailing 
wage and comprehensive rules.
    Thank you for your time and consideration. Please contact Cory 
Smith, ATEST Senior Policy Advisor at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f5c4c52564b57574a7f58525e5653115c5052">[email&#160;protected]</a> if you have 
any questions or need additional information.
            Sincerely,

                    Coalition to Abolish Slavery and Trafficking 
                            (CAST); Coalition of Immokalee Workers 
                            (CIW); ECPAT-USA; Free the Slaves; 
                            International Justice Mission; Not For 
                            Sale; Safe Horizon; Solidarity Center; 
                            Verite; Vital Voices Global Partnership.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
